Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
April 1, 2006 - September 30, 2006
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the GSA OIG
and discussed in this semiannual report.

CHALLENGES                BRIEF DESCRIPTION OF CHALLENGE                                PAGE

ACQUISITION               Merging GSA’s procurement organizations will yield a          2– 4
PROGRAMS                  single acquisition service that will award and administer
                          governmentwide contracts worth $40 to $50 billion.
                          With growing programs and shrinking numbers of
                          qualified acquisition personnel, attention to important
                          fundamentals, such as ensuring competition and
                          meaningful price analysis, has diminished.

CONTRACT                  GSA’s multibillion dollar acquisition programs have           4 –6
MANAGEMENT                expanded rapidly in terms of sales, variety, and complexity
                          of the procurements performed. A growing list of warning
                          signs throughout the acquisition process suggests that
                          the technical and management skills needed by the
                          procurement workforce to operate in this more
                          sophisticated arena are not keeping pace with these
                          new demands.

INFORMATION               Technology applications have increased exponentially          6 –8
TECHNOLOGY                as “E-Gov” is used to better manage operations and
                          interface with the public, but complex integration and
                          security issues exist.

MANAGEMENT                Management controls have been streamlined, resulting          8 – 10
CONTROLS                  in fewer and broader controls, making it essential that
                          the remaining controls be emphasized and consistently
                          followed. The need for strong internal controls underlies
                          several of the other management challenges.

HUMAN CAPITAL             GSA has an aging workforce and is facing significant loss     10 – 11
                          of institutional knowledge due to retirements, including a
                          loss of key management staff over the past year. Better
                          recruitment and training programs are needed to develop
                          the 21st century workforce.

PROTECTION OF             GSA is responsible for protecting the life and safety of      No
FEDERAL FACILITIES        employees and public visitors in Federal buildings. The       Reports
AND PERSONNEL             increased risks from terrorism have greatly expanded the      This
                          range of vulnerabilities. A broadly integrated security       Period
                          program is required.

AGING FEDERAL             GSA is being challenged to provide quality space to           No
BUILDINGS                 Federal agencies using an aging, deteriorating inventory      Reports
                          of buildings and facing critical budgetary limitations in     This
                          its modernization program.                                    Period
              Foreword


I am pleased to report to the people of the United States and their
representatives in Congress that the Office of Inspector General (OIG) at
GSA has continued to work hard on your behalf to identify waste, fraud, and
abuse in programs managed by the General Services Administration. For
the period covered by this semiannual report (SAR), over $622 million has
been identified as funds recommended for better use or questioned costs.
The OIG has issued 70 audit reports and made 337 referrals for criminal
prosecution, civil litigation, and/or administrative action. These activities are
valuable in their own right, as well as for their deterrent effect.

The Office of Inspector General, in conjunction with the Department of
Justice, just achieved the largest recovery in a civil settlement under the
False Claims Act in the history of GSA’s Multiple Award Schedules (MAS)
program—a $98.5 million dollar recovery from the Oracle Corporation for
PeopleSoft’s defective pricing of sales under GSA’s MAS Program (to be
discussed in more detail in the next SAR). GSA’s MAS contracting
program—with sales of well over $30 billion in the last fiscal year—depends
on vendors’ honesty in price negotiations. PeopleSoft misled and
overcharged the government for years. Without the OIG’s auditors’
specialized training and years of experience examining GSA’s MAS pricing
arrangements, the overcharging could have continued far beyond the
amount recovered. The OIG’s preaward and postaward audits have saved
the taxpayers billions of taxpayer dollars over the years (approximately
$1.6 billion in just the past 18 months). All of these results provide to the
American taxpayer a return of many times the cost of OIG operations.

Looking ahead, we will continue the audit and investigative initiatives which
serve the people of the United States, and will be adding to them in the
following ways:

• Homeland Security. GSA OIG will be doing more to improve the Nation’s
  homeland security, in a series of activities planned in cooperation with the
  OIG of the Department of Homeland Security.

• National Procurement Fraud Task Force. The GSA OIG has increased
  coordination with other agencies to increase the prosecution of
  procurement fraud. I worked with the Justice Department and a number
  of fellow Inspectors General to develop a National Procurement Fraud
  Task Force, of which I serve as the Vice Chair. The Task Force will help
  protect American taxpayers by increasing the deterrence and
  effectiveness of sanctions imposed on parties found guilty of procurement
  fraud.

• Computer Crime. We are developing ways to improve the reporting of
  computer crime in which the American people are victimized by electronic
  fraud and other offenses against Federal E-Gov applications. Improved
  reporting will facilitate the government’s ability to prevent and punish
  computer crime and protect individuals’ private information entrusted to
  the government.
• Suspension and Debarment. The OIG will continue to focus on whether
  GSA’s actions on suspension and debarment recommendations from the
  OIG are timely and adequate to maintain the integrity of the contractor
  pool eligible to receive public funds for performing tasks.

IG Independence
The independence of the Office of Inspector General is essential to carrying
out objective audits and investigations per the mandate of the Inspector
General Act of 1978, as amended. It is also an asset to GSA in providing a
source of credibility in those cases where it can vouch for the efforts of the
Agency to improve its practices, as in the “Get It Right” training effort that
former GSA Administrator Perry initiated.

I want to express my appreciation to Congress and OMB and senior GSA
staff who have worked with us in achieving our tremendous results for the
taxpayer.



Brian D. Miller
Inspector General
October 31, 2006
          Table of Contents

                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Fiscal Year 2006 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vi

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xiv

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8

  Human Capital . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .12

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .26

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .28

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .30

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . .37

Appendix II – Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .41

Appendix III – Audit Reports over 12 Months Old, Final Agency
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .59

Appendix V – Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .60

Appendix VI – OIG Offices and Key Officials . . . . . . . . . . . . . . . . . .61

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral




                                                              April 1, 2006 – September 30, 2006 iii
                      Summary of OIG Performance

                       April 1, 2006 – September 30, 2006

OIG Accomplishments    Total financial recommendations                                               $622,716,483

                       These include:

                       • Recommendations that funds be put to better use                             $622,480,897

                       • Questioned costs                                                               $235,586

                       Audit reports issued                                                                  70

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                                                337

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                                    $528,682,998

                       Indictments and informations on criminal referrals                                    42

                       Cases accepted for criminal prosecution                                               24

                       Cases accepted for civil action                                                           3

                       Successful criminal prosecutions                                                      43

                       Civil settlements                                                                         2

                       Contractors/individuals debarred                                                      48

                       Contractors/individuals suspended                                                     53

                       Employee actions taken on administrative referrals
                       involving GSA employees                                                                   7




                                   OIG Spending Authority Compared to Value Returned*
                                       Millions of dollars
                               1,400

                               1,200

                               1,000

                                 800

                                 600

                                 400

                                 200

                                   0
                                        2000        2001     2002   2003      2004     2005      2006

                                              Spending Authority           Value Returned
                          *Value returned is the sum of accepted audit findings plus investigation recoveries.


                                                                               April 1, 2006 – September 30, 2006 v
                                        Fiscal Year 2006 Results



                                       During Fiscal Year (FY) 2006, OIG activities resulted in:

                                       • Over $870 million in recommendations that funds be put to better use and
                                         in questioned costs. If adopted, these recommendations ultimately result
                                         in savings for the taxpayer.

                                       • 155 audit reports that assisted management in improving the efficiency
                                         and effectiveness of Agency operations.

                                       • Nearly $1.2 billion in management decisions agreeing with audit
                                         recommendations; $52.4 million in criminal, civil, and administrative
                                         recoveries; and $3.0 million in other recoveries.

                                       • 249 new investigations opened and 148 cases closed.

                                       • 63 case referrals (141 subjects) accepted for criminal prosecution and
                                         10 case referrals (42 subjects) accepted for civil litigation.

                                       • 82 criminal indictments/informations and 106 successful prosecutions on
                                         criminal matters referred.

                                       • 10 civil settlements.

                                       • 14 employee actions taken on administrative referrals involving GSA
                                         employees.

                                       • 73 contractor/individual suspensions and 65 contractor/individual
                                         debarments.

                                       • 279 legislative matters and 22 regulations and directives reviewed.

                                       • 2,112 Hotline calls and letters received of which 81 were referred for
                                         criminal or civil investigations, 81 were referred to other agencies for
                                         follow up, and 214 were submitted to GSA for review and appropriate
                                         administrative actions.




vi Semiannual Report to the Congress
                         Executive Summary



                    During this semiannual period, the OIG continued to direct its audit,
                    investigative, and evaluative resources to address what we believe to be the
                    major management challenges facing the Agency. We provided a wide
                    variety of services, including program and financial audits; management
                    control assessments; contract reviews; and investigative coverage and
                    litigation support in civil fraud and enforcement actions, criminal
                    prosecutions, contract claims, and administrative actions. We also
                    continued to provide professional assistance services and reviews of
                    proposed legislation and regulations.

                    Management Challenges
                    We have highlighted a number of reviews that address major management
                    issues facing GSA. We continued our work in addressing these challenges,
                    making recommendations, and working with management to improve
                    Agency operations. During this period, our efforts included work focusing on
                    acquisition programs, contract management, information technology (IT),
                    management controls, and human capital.

                    Acquisition Programs
                    The OIG’s contract preaward review program provides information to
Contract preaward   contracting officers for use in negotiating contracts. The pre-decisional,
                    advisory nature of preaward reviews distinguishes them from other audits.
 review program
                    This period, the OIG performed preaward reviews of 45 contracts with an
                    estimated value of $5.1 billion. We recommended that more than
                    $622 million of funds be put to better use through lower contract prices
                    (page 2).

                    Since FY 2002, we have been performing reviews of contracting practices at
                    the Federal Acquisition Service’s Client Support Centers (FAS’ CSCs).
                    CSCs help customer agencies define their IT requirements, identify sources
                    of products or services, prepare task orders, and assist in managing
 FAS contracting    projects. In FY 2005, CSC procurements exceeded $3.6 billion, with
   practices        Department of Defense (DoD) customers representing about 84 percent of
                    the business. As part of our continuing effort on reviewing CSC contracting
                    practices, we performed a 2005 joint review with the DoD OIG, of each CSC
                    to determine compliance with defense procurement requirements. We found
                    that 11 of the 12 CSCs were not compliant but were making significant
                    progress toward becoming compliant, and one was compliant. During this
                    period we conducted follow-up testing of controls, jointly with the DoD OIG,
                    and determined that while some minor procurement deficiencies existed in
                    several of the regional CSCs, they were isolated cases and did not indicate
                    a pattern of non-compliance. Overall, we determined that the 11 CSCs are
                    now compliant with procurement regulations (page 3).

                    Contract Management
                    GSA’s Federal Systems Integration and Management Center (FEDSIM)
    FEDSIM
                    provides IT solutions for Federal agencies by contracting with private sector


                                                              April 1, 2006 – September 30, 2006 vii
                                              Executive Summary



                                         vendors. FEDSIM uses a variety of contract vehicles to provide the larger,
                                         often complex, IT solutions to the Federal agencies it serves on a
                                         reimbursable basis. In our review of FEDSIM, we found that FEDSIM was
                                         generally complying with the Federal Acquisition Regulation, but that there
                                         were opportunities for improving task order management and increasing
                                         price competition (page 4).

                                         GSA’s University for People (U4P) provides training opportunities to GSA
                                         employees nationwide. U4P is a fully reimbursable “fee for use” program
                                         and enters into a memorandum of agreement with each of its clients that
                                         identifies the type of training requested and the total cost. At the request of
     GSA’s University                    the National Capital Region’s Acting Regional Administrator, we initiated a
       for People                        review of the program which focused on U4P’s procurement practices and
                                         contract administration. We found substantial procurement deficiencies and
                                         irregularities in U4P’s delivery of project management training. As a result,
                                         we recommended that U4P develop a formal business plan, obtain
                                         appropriate procurement support, and establish appropriate fund and
                                         accounting controls to ensure compliance with applicable appropriation law
                                         (page 5).

                                         Information Technology
                                         The Federal Information Security Management Act (FISMA) requires Federal
                                         agencies to develop, implement, and document an agency-wide information
                                         security program. While GSA continues to better secure its systems, system
                                         security officials do not consistently ensure effective implementation of
                                         GSA’s IT Security Policy. Although steps have been taken to address
                                         previously reported weaknesses, we found instances where system security
  IT Security Program                    officials did not ensure that systems were properly secured. We noted
                                         improvements in the number of critical vulnerabilities identified by our
                                         automated systems vulnerability scanning this year, compared to prior years.
                                         And as in previous years, we identified weaknesses with implementation of
                                         the Certification and Accreditation process, contractor background
                                         investigations, and contractor provided solutions. During our review, we
                                         issued an Alert Report to management which identified two significant areas
                                         of risk with Web applications including: 1) insufficient validation of data
                                         fields, and 2) unsecured Web servers running outdated and unsupported
                                         operating system software (page 7).

                                         Management Controls
                                         FAS’ Information Technology Acquisition Center piloted the Quick-Mod
                                         Program to provide customer agencies with the most current IT products on
                                         the market. Under the Quick-Mod Program, contractors are allowed to
                                         modify or add products to GSA Advantage!TM, for pre-approved product
  Quick-Mod Program                      categories and pricing structures without contracting officer approval.
                                         Contracting officers are required to review modifications/additions after they
                                         are posted on GSA Advantage!TM. The Program is being tested with
                                         contractors who supply products under Schedule 70, “General Purpose


viii Semiannual Report to the Congress
                            Executive Summary



                       Commercial Information Technology Equipment, Software, and Services,”
                       SIN 132-8 “Purchase of Equipment.” Management requested that we
                       perform this review to determine if Quick-Mod should be expanded to other
                       schedules. We found that a lack of management controls allowed incorrect
                       prices and unauthorized products to be placed on GSA Advantage!TM and go
                       undetected. Consequently, customers have access to products and prices
                       via GSA Advantage!TM that 1) are not based upon a contractually
                       pre-negotiated rate, or 2) are not fair and reasonable since they exceed the
                       established pricing structure. We recommended that FAS should not expand
                       the Quick-Mod program to other schedules at this time (page 8).

                       The National Capital Region, with the largest number of government-owned
                       buildings in GSA, is responsible for providing a multitude of building
                       operations functions and has incurred significant overtime labor costs. Our
Overtime management    review focused on the management control environment for building
                       operations that frequently incur overtime costs. In FY 2004, about a third of
                       the 1,262 employees that engaged in these functions received a total of
                       nearly $3.4 million for overtime, averaging 19 percent of their base pay; the
                       trend continued in FY 2005. We concluded the region needs better
                       oversight and control of overtime costs. We recommended that
                       management redesign the overtime form as a mandatory, standard
                       electronic version that captures pertinent data elements and implements a
                       variance analysis reporting capability to provide a means to better control
                       the overtime expense element (page 9).

                       Human Capital
                       Competitive sourcing is the process for competition between Federal
                       agencies and the private sector to determine who is best able to perform
                       commercial activities to ensure the best value. The President’s
                       Management Agenda (PMA) requires agencies to explore competitive
                       sourcing as a means to make government more efficient. GSA currently
                       maintains a score of “Green” for Competitive Sourcing on the PMA
Competitive sourcing   Scorecard for both “Current Status” and “Progress in Implementing” the
                       PMA. Our review noted several areas of concern that may negatively impact
                       GSA’s ability to continue effective and efficient implementation of the PMA,
                       and place GSA in jeopardy of losing its “Green” status. First, as the
                       competitive sourcing focus shifts from GSA’s Public Buildings Service to the
                       rest of the Agency, there will be a significant loss of first hand knowledge
                       and experience with the process. It is expected that future competitions will
                       be more standard, increasing the length and complexity of the process. In
                       addition, the merger of the Federal Supply Service and Federal Technology
                       Service into the new Federal Acquisition Service (FAS) may have a negative
                       impact on scheduled competitions. Also, GSA has yet to post and share
                       lessons learned from the competitive sourcing process as required by
                       OMB Circular A-76 (page 10).




                                                                  April 1, 2006 – September 30, 2006 ix
                                           Executive Summary



                                      Promoting and Protecting Integrity
                                      This period we obtained criminal, civil, and other monetary recoveries
                                      totaling more than $8.7 million. Our work involved a wide variety of criminal
                                      and civil investigations and reviews, and participation in joint task forces with
                                      other Federal law enforcement agencies (page 12).

                                      Public Corruption Initiative—Highlights
                                      A joint investigation was initiated when it was suspected that David H.
                                      Safavian, GSA’s former Chief of Staff, aided a Washington, DC lobbyist in
                                      the lobbyist’s attempts to acquire GSA-controlled property in and around DC.
                                      Safavian was found guilty of obstructing the work of the GSA OIG and of
                                      lying to a GSA ethics official. It also convicted him of lying to the GSA OIG
                                      and making a false statement to the Senate Indian Affairs Committee. He
                                      was sentenced to 18 months incarceration and 2 years of supervised
                                      probation. In a collateral investigation, Congressman Robert Ney pled guilty
                                      to conspiracy in violation of post-employment restrictions for former
                                      Congressional staff members, mail and wire fraud, and depriving the public
                                      of honest services (page 12).

                                      A former FTS program director, one of his employees, and a GSA contractor
                                      employee used their respective positions to arrange no-show jobs for a
                                      company that held contracts to provide IT-related support services to the
                                      U.S. Army. The FTS program director pled guilty to making false claims and
                                      tax evasion. His employee pled guilty to filing false claims; the GSA
                                      contractor pled guilty to making false claims. Sentencing is pending for all
                                      three individuals (page 13).

                                      The director of GSA’s National Center for Utilities Management accepted
                                      gratuities from Tiger Natural Gas, Inc. (Tiger) of Tulsa, Oklahoma. The
                                      director pled guilty to conspiracy to engage in conflicts of interest and was
                                      sentenced to 6 months home confinement and 3 years probation (page 14).

                                      Two GSA contractor employees conspired to steal and depredate U.S.
                                      Government property valued at $192,000 from a cellblock that was under
                                      construction at the new U.S. District Courthouse in the Eastern District of
                                      New York. The contractors pled guilty to conspiracy to commit depredation
                                      against property of the United States and were each sentenced to 3 years
                                      probation and ordered to pay a fine and restitution (page 15).

                                      A U.S. Army employee used his official position as contracting officer
                                      technical representative to direct prime contractors to subcontract with two
                                      companies in which he had financial interest. He pled guilty to wire fraud
                                      and was sentenced to 24 months incarceration, 3 years supervised
                                      probation, and ordered to pay $150,049 in restitution (page 15).

                                      A joint investigation found that the assistant district director for the SBA’s
                                      8(A) Business Development Program in Puerto Rico and the U.S. Virgin


x Semiannual Report to the Congress
     Executive Summary



Islands used his position to obtain monies for his personal benefit from a
GSA contractor that did business through this program. The director
received $20,000 in cash from the GSA contractor; the contractor received
over $3 million in 8(A) contracts, renewals, and extensions for his business.
A Federal jury found the former director guilty of bribery; sentencing is
pending (page 16).

The owner of Electrics and More established a large inventory of computer
and medical equipment bought through GSA auctions in order to create
fictitious invoices for “new” equipment. The owner claimed that he furnished
“new” equipment to educational programs in Missouri and received over
$2 million in tax credits. When the inventory was questioned, there was a
suspicious fire. The owner pled guilty to mail fraud and money laundering
and was sentenced to 60 months confinement, 36 months parole, and
ordered to pay restitution in the amount of $2,004,813 (page 16).

The technical services supervisor at Tricon Restaurants International (Tricon)
conspired with the president of Gate Engineering Corporation (Gate), a GSA
contractor. While employed with Tricon, the supervisor received over
$31,000 in payoffs from the president of Gate in exchange for directing over
$1 million dollars in electrical contract work to Gate. The supervisor was
found guilty of conspiracy and was sentenced to 12 months and 1 day
incarceration and 2 years supervised release. The president pled guilty to
making kickback payments and was sentenced to 12 months home
confinement with electronic monitoring, 4 years probation, 400 hours of
unpaid community service, and was ordered to pay a fine of $250,000. Also,
the attorney representing the defendant was found guilty of conspiracy,
witness tampering, and obstruction of an investigation and was sentenced to
33 months imprisonment, 3 years supervised probation, 120 hours
community service, and ordered to surrender his law license (page 17).

Fleet Charge Card Initiative—Highlights
During FY 2006, the OIG received reimbursable funding from the GSA fleet
program to place an increased emphasis on charge card fraud. The OIG
examines the use of these charge cards at commercial service stations
under vehicle leasing agreements with various Federal agencies. The
initiative involves investigative staff, identifying both the accounting
anomalies associated with the current billing procedures and instances of
criminal fraud and abuse associated with improper card usage. From
October 2005 through September 2006, the OIG initiated 94 investigations
of fleet card fraud. To date, these cases have resulted in 63 judicial actions
including 19 indictments and 44 criminal convictions. The monetary returns
paid by defendants totaled $402,256 in restitution, fines, and special
assessments (page 20).




                                            April 1, 2006 – September 30, 2006 xi
                                             Executive Summary



                                        Civil Actions—Highlights
                                        AT&T Corporation (AT&T) agreed to pay $2.9 million to settle a qui tam
                                        complaint relating to overcharges for telecommunications services. The
                                        complaint alleged that AT&T overcharged the government with regard to
                                        Pre-Subscribed Interexchange Carrier Charges (page 22).

                                        The Hunt Corporation (Hunt) agreed to pay $1.9 million to settle a potential
                                        civil False Claims Act case relating to Hunt’s withholding of payments to its
                                        subcontractors under its contract for the construction of the United States
                                        Federal Building and Courthouse in Hammond, Indiana (page 23).

                                        Suspension and Debarment Initiative—Highlights
                                        During this reporting period, the OIG made 111 referrals for consideration of
                                        suspension/debarment to the GSA Office of Acquisition Policy. This period
                                        GSA issued 53 suspension and 48 debarment actions based on OIG
                                        referrals. Currently, 260 OIG referrals are pending decisions/actions by the
                                        Agency (page 23).

                                        Summary of Results
                                        The OIG made over $622 million in financial recommendations to better use
                                        government funds; made 337 referrals for criminal prosecution, civil litigation,
                                        and administrative actions; reviewed 152 legislative and regulatory actions;
                                        and received 1,121 Hotline contacts. This period, we achieved savings from
                                        management decisions on financial recommendations, civil settlements, and
                                        investigative recoveries totaling over $528 million. (See page v for a
                                        summary of this period’s performance.)




xii Semiannual Report to the Congress
(This page was intentionally left blank.)



   April 1, 2006 – September 30, 2006 xiii
                                        OIG Organization Chart


                                             Inspector General
                                               Brian D. Miller                                Advisor
                                          Deputy Inspector General                        Robert M. Samuels
                                             Eugene L. Waszily


            Office of Counsel to the IG                                Office of Internal Evaluation & Analysis
                  Kevin A. Buford                                                   Peter J. Coniglio
                 Counsel to the IG                                                      Director


     Office of Administration                   Office of Audits                      Office of Investigations
             (Vacant)                         Andrew Patchan, Jr.                        Charles J. Augone
      AIG for Administration                 Acting AIG for Auditing                   AIG for Investigations


        Human Resources                           Audit Operations Staff                  Investigations Operations
            Division                                                                               Division

                                                    Administration &
            Information                            Data Systems Staff
                                                                                              Regional Offices
        Technology Division                                                                    Washington, DC
                                                      Information                                New York
                                                 Technology Audit Office                          Atlanta
         Administrative &                                                                         Chicago
      Financial Management                                                                      Kansas City
                                                     Real Property                               Fort Worth
             Division
                                                                                               San Francisco
                                                      Audit Office
                                                                                                  Auburn

                                                Finance & Administrative
                                                      Audit Office                                Sub-Offices
                                                                                                    Boston
                                                                                                  Philadelphia
                                                  Acquisition Programs
                                                      Audit Office


                                                  Contract Audit Office


                                                   Field Audit Offices
                                                     Washington, DC
                                                        Boston
                                                       New York
                                                      Philadelphia
                                                        Atlanta
                                                        Chicago
                                                      Kansas City
                                                       Fort Worth
                                                     San Francisco


                                                        Sub-Office
                                                       Auburn (WA)
xiv Semiannual Report to the Congress
                                  OIG Profile



                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative organization staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations through
                        program performance reviews, assessment of management controls, and
                        financial and compliance audits. The office also conducts external
                        reviews in support of GSA contracting officials to ensure fair contract
                        prices and adherence to contract terms and conditions. The office
                        additionally provides research, benchmarking, and other services to assist
                        Agency managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative organization that conducts
                        a nationwide program to prevent, detect, and investigate illegal and/or
                        improper activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative/regulatory review.

                      • The Office of Internal Evaluation and Analysis, a quality control staff
                        that provides management assessments of OIG operations and conducts
                        internal investigations and reviews at the direction of the Inspector
                        General.

                      • The Office of Administration, a professional staff that provides
                        information technology, budgetary, administrative, personnel, and
                        communications support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, DC, at GSA’s Central Office
                      Building. Field audit and investigation offices are maintained in Boston, New
                      York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, Auburn, and Washington, DC. (A contact list of OIG offices and
                      key officials is provided in Appendix VI.)

Staffing and Budget   As of September 30, 2006, our on-board strength was 291 employees. The
                      OIG’s Fiscal Year (FY) 2006 budget was $48.3 million.




                                                                 April 1, 2006 – September 30, 2006 1
                                       Management Challenges



                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges facing
                                      the Agency. (The current list is summarized on the front inside cover.) This
                                      period we continued our work in addressing these challenges, making
                                      recommendations, and working with management to improve Agency
                                      operations. The following sections highlight our activities in these areas.

                                      Acquisition Programs
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews of
                                      these activities to ensure that the taxpayers’ interests are protected.

                                      Significant Contract Preaward Reviews
                                      The OIG’s contract preaward review program provides information to
                                      contracting officers for use in negotiating contracts. The pre-decisional,
   Over $600 million                  advisory nature of preaward reviews distinguishes them from other audits.
    in savings can                    This program provides vital and current information to contracting officers,
                                      enabling them to significantly improve the government’s negotiating position
      be achieved                     and to realize millions of dollars in savings on negotiated contracts. This
     through lower                    period, the OIG performed preaward reviews of 45 contracts with an
    contract prices.                  estimated value of $5.1 billion. We recommended that more than
                                      $622 million of funds be put to better use through achieving lower contract
                                      prices.

                                      Many of the reviews disclosed that vendors offered prices and labor rates to
                                      GSA that were not as favorable as the prices and rates other customers
                                      received from these vendors. For example, contrary to one company’s
                                      disclosure, the offer to GSA was not reflective of the company’s most
                                      favored customer pricing. Another company did not completely disclose its
                                      commercial end-user discounts and practice of awarding volume discounts.

                                      There are now more than 10,000 vendors doing over $35 billion in business
                                      annually under GSA’s rapidly expanding procurement programs. Based on
                                      documentation we received in FY 2006, GSA contracting officers, using the
                                      information included in our preaward audit reports, negotiated lower contract
                                      prices or more favorable terms and conditions equivalent to a savings of
    OMB authorized                    $31 for every dollar invested in OIG preaward contract reviews, significantly
                                      benefitting the government and the taxpayer. The Office of Management
   additional funding                 and Budget (OMB) has long recognized the increasing dollar value of GSA’s
  for further reviews.                contract activities and our limited resources in providing commensurate audit
                                      coverage. Through the Federal Acquisition Service (FAS) contract program
                                      revenues, OMB officials have provided us additional financial support to
                                      increase our work in this area. These funds enabled us to hire additional
                                      staff to support expanded contract review activities including, primarily, an
                                      increase in preaward contract reviews, as well as more contract
                                      performance reviews that evaluate contractors’ compliance with pricing,



2 Semiannual Report to the Congress
 Management Challenges



Acquisition Programs (continued)

billing, and terms of their contracts, and periodic program evaluations to
assess the efficiency, economy, and effectiveness of contracting activities.
We now allocate about 45 percent of our resources to contract reviews.

During this 6-month period, management decisions were made on 49 of the
preaward reports issued during the last year, which recommended that more
than $509 million of funds be put to better use. Management agreed with
100 percent of the recommended savings.

FAS Contracting Practices and Agency Improvement Actions
Since FY 2002, we have been performing reviews of contracting practices at
the Federal Acquisition Service’s1 (FAS) Client Support Centers (CSCs).
CSCs help customer agencies define their IT requirements, identify sources
of products or services, prepare task orders, and assist in managing
projects. In FY 2005, CSC procurements exceeded $3.6 billion, with
Department of Defense (DoD) customers representing about 84 percent of
the business. Our initial audits in 2003 and 2004 identified a number of
improper task order and contract awards, including work outside the contract
scope, improper order modifications, frequent inappropriate use of time-and-
materials task orders, and failure to enforce contract provisions. In response
to our audit findings, GSA has initiated a number of improvement actions to
ensure controls are in place in each CSC including the “Get it Right” initiative
which includes educating and training acquisition employees, aligning
performance measures, publishing new contracting regulations and
procedures, and validating the proper use of GSA contract vehicles and
services. GSA has also deobligated and returned excess client-agency
funds from prior fiscal years, and issued guidelines to contracting staff on the
use of fiscal year funding.

As directed by the Ronald W. Reagan National Defense Authorization Act for
FY 2005, we performed a 2005 joint review with the DoD Office of Inspector
General of each CSC to determine compliance with defense procurement
requirements. We found that 11 of the 12 CSCs were not compliant but
were making significant progress toward becoming compliant, and one was
compliant.

As also mandated in the Act, we conducted follow-up testing of controls,
jointly with the DoD OIG, to determine whether the 11 CSCs are now
compliant. The objective of this review was to test the effectiveness of


1
  On October 12, 2006, GSA’s Administrator signed the GSA Order officially creating the
Federal Acquisition Service (FAS). This order combined the former Federal Technology
Service (FTS) and Federal Supply Service (FSS) to create FAS. It also combines the
General Supply Fund and the IT Fund into a single Acquisition Services Fund.




                                                 April 1, 2006 – September 30, 2006 3
                                       Management Challenges



                                      Acquisition Programs (continued)

                                      recent GSA and DoD procurement initiatives, and whether current
                                      contracting practices have improved, including meeting requirements for
                                      obtaining competition in awarding task orders.

                                      On September 29, 2006, we issued 11 regional CSC reports. While we did
                                      find some minor procurement deficiencies in several of the regional CSCs,
                                      we found they were isolated cases, were not pervasive, and did not indicate
      CSCs found                      a pattern of non-compliance. We determined, overall, that the 11 CSCs are
     compliant with                   now compliant with procurement regulations. We recognize that during the
      procurement                     period of our review, GSA and DoD components lacked a common
                                      understanding of the proper use of funds across fiscal years and the format
      regulations.                    for interagency agreements, and there was no clear official position between
                                      the two agencies. GSA and DoD officials are continuing to work on
                                      developing consistent policies and procedures to be implemented for GSA
                                      and DoD interagency contracting.

                                      Contract Management
                                      GSA increasingly accomplishes its mission by using contractors to provide
                                      client services and products. Its multibillion dollar acquisition programs have
                                      expanded rapidly in terms of size, variety, and complexity of the
                                      procurements performed. While many GSA contracts are well crafted and
                                      properly administered, we continue to find a significant number of
                                      weaknesses. Our audit work in recent years has revealed a growing list of
                                      warning signs throughout the acquisition process that suggests the technical
                                      and management skills needed by the procurement workforce to operate in
                                      this more sophisticated arena are not keeping pace with these new
                                      demands.

                                      FEDSIM
                                      GSA’s Federal Systems Integration and Management Center (FEDSIM)
                                      provides IT solutions for Federal agencies by contracting with private sector
                                      vendors. FEDSIM uses a variety of contract vehicles to provide the larger,
                                      often complex, IT solutions to the Federal agencies it serves. FEDSIM
                                      provides the acquisition services and project management throughout a
                                      project’s life on a reimbursable basis.

                                      FEDSIM is organized into two main divisions—one to serve DoD and the
  Business practices                  other for civilian agencies. Each division has two subdivisions—contracting
                                      and project management. In 2004, FEDSIM generated about $1.4 billion in
  can be improved to                  revenue, with DoD clients representing approximately 60 percent of the
    increase price                    business.
     competition.
                                      In our review, we found that FEDSIM was generally complying with the
                                      Federal Acquisition Regulation, but that there were opportunities for
                                      improving task order management and increasing price competition.


4 Semiannual Report to the Congress
 Management Challenges



Contract Management (continued)

Specifically, the terms and conditions of task orders were not always
enforced. We identified deficiencies regarding inaccurate contractor
invoicing, unsupported contractor travel and other costs, and lack of security
clearances, which we believe were caused by an overreliance on outside
parties to supply information and support. Some invoices were approved
without adequate support and as a result the government accepted
sub-standard services and, in some cases, did not receive all services.

We also found FEDSIM business practices can be improved to increase
price competition. FEDSIM publishes fairly narrow cost ranges derived from
government estimates in its solicitations. We found contractors generally
proposed prices within a few percentage points of the mid-point of the
ranges.

In our September 29, 2006 report, we recommended that the Commissioner,
Federal Acquisition Service direct FEDSIM management to:

• Have project managers proactively manage task orders.

• Institute quality control procedures to improve fair opportunity,
  competition, and planning in the procurement process.

• Analyze the basis and approach for setting published cost ranges and
  levels of effort in the solicitation to promote opportunities for further cost
  savings.

In response to our draft report, the Commissioner agreed with the first two
recommendations but disagreed with the third. We revised our third
recommendation to clarify our concerns. We noted that while there may be
benefits to publishing cost ranges and an estimated level of effort in
solicitations, FEDSIM may be missing opportunities for further cost savings
by publishing cost ranges which are not analytically based and narrowly
defined.

GSA’s University for People
GSA’s University for People (U4P) provides training opportunities for GSA
employees. Although it is a component of the National Capital Region
(NCR), U4P extends its services to GSA employees, nationwide. U4P is a
fully reimbursable “fee for use” program and enters into a memorandum of
agreement with each of its clients (GSA internal organizations such as FAS
and the Office of Chief Information Officer) that identifies the type of training
requested and the total cost. While U4P manages the client obligated
training funds, course scheduling, and payment remittals, a vendor under
contract with U4P provides the actual training. During FY 2005, the vendor
trained 2,662 GSA employees at a cost of more than $1.4 million. We



                                              April 1, 2006 – September 30, 2006 5
                                       Management Challenges



                                      Contract Management (continued)

                                      performed a review focusing on U4P’s procurement practices and contract
                                      administration at the request of NCR’s Acting Regional Administrator.

                                      Specifically, we addressed U4P’s delivery of project management training,
                                      and found substantial procurement deficiencies and irregularities. First, U4P
                                      entered into an unauthorized, sole source procurement to acquire project
                                      management training on behalf of its client organizations. This contract was
        Multiple                      negotiated, signed, and executed by a government representative who
      procurement                     lacked the authority to enter into that agreement on behalf of the
    deficiencies and                  government.
      fundamental                     Secondly, as specific client requirements arose, U4P issued task orders that
         control                      misleadingly referenced another GSA-issued contract held by the vendor (a
   weaknesses exist                   legitimate multiple award schedule (MAS) contract put in place by FAS),
                                      while the terms and conditions of the unauthorized sole source contract were
   in project training                in fact controlling.
        contract.
                                      We also found, due in some part to the underlying procurement vehicle,
                                      fundamental controls absent from U4P’s contract administration process.
                                      Generally, vendor invoices were not, and could not, be reconciled with their
                                      originating order document; current administrative practices did not permit
                                      reconciliation between the source of funding (customer orders placed with
                                      U4P) and the payment for services (U4P orders placed with its vendor); and
                                      a number of obligations remained open beyond the appropriate fiscal year
                                      with no apparent valid justification under appropriations law.

                                      As a result of our review, we recommended that U4P:

                                      • Develop a formal business plan.

                                      • Develop and maintain acquisition plans to support its business plan.

                                      • Obtain appropriate procurement support.

                                      • Establish appropriate fund and accounting controls to ensure compliance
                                        with applicable appropriation law as well as to facilitate program
                                        management.

                                      Management concurred with our recommendations.

                                      Information Technology
                                      GSA is in the process of replacing or upgrading a number of its legacy
                                      information systems to improve performance and take advantage of
                                      technological advances. Since GSA has had difficulty sharing usable data
                                      between systems, many of the new IT projects are intended to go beyond
                                      automating current business functions and to create real change in the way


6 Semiannual Report to the Congress
                        Management Challenges



                       Information Technology (continued)

                       that GSA does business. However, GSA systems development projects
                       have typically experienced significant schedule delays and cost overruns,
                       the need for frequent redesign, and a prolonged period of time in
                       development.

                       GSA’s IT Security Program
                       The Federal Information Security Management Act (FISMA) requires Federal
                       agencies to develop, implement, and document an agency-wide information
                       security program. While GSA continues to better secure its systems, system
                       security officials do not consistently ensure effective implementation of
                       GSA’s IT Security Policy. Although GSA’s Senior Information Security Officer
                       has taken steps to address previously reported weaknesses, we continue to
                       find instances where system security officials did not ensure that systems
                       were properly secured. Effective implementation of GSA’s IT Security
Accountability of IT   Program at the system level is dependent upon improved accountability for
  system security      persons with key IT security responsibilities. There is a need for improved
    officials and      policy and procedures to establish standardized performance goals and
                       measures for those with key IT security responsibilities, since these
   performance         individuals do not typically report directly to the GSA Office of the Chief
 measures need to      Information Officer. We did note improvements evidenced by a major
  be improved to       decrease in the number of critical vulnerabilities identified by our automated
                       systems vulnerability scanning this year, compared to prior years. As in
ensure IT security.    previous years, we identified weaknesses with implementation of the
                       Certification and Accreditation process, contractor background investigations,
                       and contractor provided solutions. Shortfalls in these key areas demonstrate
                       the need for improved accountability for individuals with key IT security
                       responsibilities. Finally, an analysis of technical security controls for Web
                       applications and Voice over Internet Protocol (VOIP) implementations found
                       that GSA’s IT Security Program would benefit from a more proactive
                       approach to addressing emerging IT security risks.

                       During our review, we identified two significant areas of risk with Web
                       applications: 1) insufficient validation of data fields, and 2) unsecured Web
                       servers running outdated and unsupported operating system software. We
                       issued an Alert Report to the Chief Information Officer on May 2, 2006
                       notifying management to focus immediate attention on these risks.

                       In our September 8, 2006 report, we recommended that the Chief
                       Information Officer:

                       • Improve accountability for employees and contractors responsible for IT
                         security by developing standardized performance goals and measures.

                       • Strengthen policy and clarify responsibilities in the background
                         investigation process.



                                                                   April 1, 2006 – September 30, 2006 7
                                       Management Challenges



                                      Information Technology (continued)

                                      • Ensure the IT Architecture Planning Committee takes action to address
                                        risks with emerging technologies.

                                      • Develop and implement technical/hardening guides for securing Web
                                        applications and VOIP.

                                      The Chief Information Officer generally concurred with the findings and
                                      recommendations.

                                      Management Controls
                                      Multiple management controls and extensive supervisory reviews have been
                                      replaced, through streamlining efforts, by fewer and broader controls,
                                      making it essential that the remaining control processes be emphasized and
                                      consistently followed. Streamlined processes have helped GSA achieve its
                                      goal of serving customers more quickly and efficiently; however, the Agency
                                      is exposed to the risk of mismanagement and abuse if program officials do
                                      not ensure the faithful application of existing safeguards.

                                      FAS’ Quick-Mod Program
                                      FAS’ Information Technology Acquisition Center piloted the Quick-Mod
                                      Program to provide customer agencies with the most current IT products on
                                      the market. The Program is being tested with contractors who supply
                                      products under Schedule 70, “General Purpose Commercial Information
                                      Technology Equipment, Software, and Services,” SIN 132-8 “Purchase of
                                      Equipment.” Under the Quick-Mod Program, contractors are allowed to
                                      modify or add products to GSA Advantage!TM, for pre-approved product
                                      categories and pricing structures without contracting officer approval.
                                      Contracting officers are required to review modifications/additions after they
        Lack of                       are posted on GSA Advantage!TM. Management requested that we perform
      management                      this review to determine if Quick-Mod should be expanded to other
                                      schedules.
     controls allow
    unauthorized or                   We found that a lack of management controls allowed incorrect prices and
   incorrectly priced                 unauthorized products to be placed on GSA Advantage!TM and go
                                      undetected. Contracting officers either did not effectively review the
     products to be                   Quick-Mods or chose not to perform reviews at all. During our review, we
    offered for sale                  found that contracting officers did not have a strong understanding of their
       under GSA                      overall responsibilities and review procedures under the Quick-Mod
                                      Program. As a result of these conditions, 8 of the 10 Quick-Mods sampled
     Advantage!TM.                    had unauthorized products and/or incorrect prices.

                                      We determined that the unauthorized products found in the Quick-Mods
                                      included software, licenses, maintenance, training, and miscellaneous
                                      products. When unauthorized products were listed on GSA Advantage!TM,
                                      customers were viewing products for which there was no contractual price


8 Semiannual Report to the Congress
                       Management Challenges



                      Management Controls (continued)

                      structure. In addition, we found that many Quick-Mods had pricing errors.
                      Although contractors have been made aware of Quick-Mod policy, they still
                      entered incorrect data into the system. Consequently, customers have
                      access to products and prices via GSA Advantage!TM that: 1) are not based
                      upon a contractually pre-negotiated rate, or 2) are not fair and reasonable
                      since they exceed the established pricing structure. It is our opinion that
                      FAS should not expand the Quick-Mod Program to other schedules at this
                      time.

                      In our April 6, 2006 report, we recommended that the Acting Commissioner
                      of FAS develop a single point of entry database that contractors can use to
                      enter modifications, and contracting officers can use to verify Quick-Mods.
                      This would eliminate the need for contractors to submit a separate
                      spreadsheet for contracting officers to review, which is not linked directly to
                      data placed on GSA Advantage!TM. Secondly, we recommended that FAS
                      institute policies to determine whether contractors who make repeated
                      mistakes should be allowed to continue under the Program, and to remove
                      those who blatantly abuse the Quick-Mod Program.

                      Management generally concurred with the report recommendations.

                      Overtime Management
                      The National Capital Region, with the largest number of government-owned
                      buildings in GSA, is responsible for providing a multitude of building
                      operations functions and has incurred significant overtime labor costs. We
  Region lacks        focused our review on the management control environment for building
controls to justify   operations support such as utility systems repair, mechanical engineering,
                      fire systems, and custodial tasks, since these employees most frequently
and reconcile over    incur overtime costs. In FY 2004, about a third of the 1,262 employees
  $3.4 million in     engaged in these functions received a total of nearly $3.4 million for
 overtime costs.      overtime, averaging 19 percent of their base pay; the trend continued in
                      FY 2005.

                      We concluded the region needs better oversight and control of overtime
                      costs. The current control environment in the region relies on poorly
                      designed overtime control forms and procedures. The design and
                      implementation shortcomings of the GSA form used to request, authorize,
                      and report overtime compromise effective management control of the
                      expense. We found that existing records cannot fully support or justify the
                      costs incurred, required reconciliations and validation tests were not
                      performed, and overtime was not subject to routine examination or analysis.
                      We observed a standard practice that reduced the authorization process to a
                      generic description of work to be performed with no justification for why the
                      function required overtime. We also noted a continual use of overtime for
                      shift coverage, an indication of an inadequate resource management plan.
                      As a result, the process is left vulnerable to undetected errors and abuse.


                                                                   April 1, 2006 – September 30, 2006 9
                                        Management Challenges



                                       Management Controls (continued)

                                       In our April 19, 2006 report, we recommended that the Assistant Regional
                                       Administrator, in conjunction with the appropriate policy office:

                                       • Redesign the overtime form as a mandatory, standard electronic version
                                         that captures pertinent data elements.

                                       • Implement a variance analysis reporting capability to provide a means to
                                         better control the overtime expense element.

                                       Management generally concurred with the recommendations.

                                       Human Capital
                                       Like many Federal agencies, GSA has an aging workforce and faces
                                       significant potential loss of institutional knowledge in the coming years.
                                       Since 1993, GSA has been downsizing and has focused on restructuring its
                                       financial and business efforts. Much of the downsizing was accomplished
                                       through early retirement and buyout authority, and by filling job vacancies
                                       sparingly.

                                       Congress and the Government Accountability Office (GAO) have identified
                                       human capital management policies as a missing link in the government’s
                                       performance management framework. GAO identified human capital
                                       planning and organizational alignment, leadership continuity and succession
                                       planning, and recruitment and retention of staff with the right skills as key
                                       areas needing attention.

                                       GSA’s Competitive Sourcing Initiative
                                       Competitive sourcing is the process for competition between Federal
                                       agencies and the private sector to determine who is best able to perform
                                       commercial activities to ensure the best value. The President’s
                                       Management Agenda (PMA), enacted in 2001, requires agencies to explore
                                       competitive sourcing as a means to make government more efficient.

                                       GSA currently maintains a score of “Green” for Competitive Sourcing on the
                                       PMA Scorecard for both “Current Status” and “Progress in Implementing” the
                                       PMA. GSA achieved this status, in part, through the performance of
                                       competitions and the development of the GSA Green Plan. Guidance for
                                       public-private competitions is provided by OMB Circular A-76 (A-76).

                                       In our review, we noted several areas of concern that may negatively impact
                                       GSA’s ability to continue effective and efficient implementation of the PMA,
                                       and place GSA in jeopardy of losing its “Green” status on the PMA
                                       scorecard.

                                       First, as the competitive sourcing focus shifts from GSA’s Public Buildings
                                       Service (PBS) to the rest of the Agency, there will be a significant loss of first

10 Semiannual Report to the Congress
                     Management Challenges



                    Human Capital (continued)

                    hand knowledge and experience with the process since, between FY 2004
                    and 2005, PBS has performed 53 of the 54 completed competitions, all of
                    which were streamlined (less complex with short completion timeframes).
                    Future reviews will be “standard” competitions which are more complex and
                    can take considerably longer to complete. Adding to this, the merger of FSS
 Lessons learned    and FTS into the new FAS may have a negative impact on scheduled
    from the        competitions. Also, GSA has yet to post and share lessons learned from the
                    competitive sourcing process as required by A-76. Finally, GSA is scheduled
   competitive      to re-compete the previously cancelled agency-wide marketing function but
sourcing process    has not yet addressed the problems and issues that led to the cancellation.
need to be shared
                    To help ensure that GSA continues to effectively and efficiently implement
 within GSA and     the provisions of the PMA and A-76, we recommended that the Office of
    with other      Performance Improvement:
    agencies.       • Seek the active participation of PBS staff to ensure their experiences and
                      knowledge gained from prior competitions is carried forward to upcoming
                      competitions.

                    • Examine the potential impact of the FSS/FTS reorganization on the
                      scheduled competitions to determine whether to proceed, and examine
                      alternative areas for competition where necessary.

                    • Post lessons learned from both streamlined and standard competitions to
                      the SHARE A-76! Web site.

                    • Review the issues that led to the cancelled marketing competition before
                      re-competing the function.

                    The Acting Associate Administrator, Office of Performance Improvement,
                    generally agreed with the recommendations and stated that the office has
                    already taken some steps toward implementation.




                                                              April 1, 2006 – September 30, 2006 11
                              Promoting and Protecting Integrity



                                       GSA is responsible for providing working space for almost one million
                                       Federal employees. The Agency also manages the transfer and disposal of
                                       excess and surplus real and personal property and operates a
                                       governmentwide service and supply system. To meet the needs of customer
                                       agencies, GSA contracts for billions of dollars worth of equipment, supplies,
                                       materials, and services each year. We conduct reviews and investigations in
                                       all these areas to ensure the integrity of the Agency’s financial statements,
                                       programs, and operations, and that the taxpayers’ interests are protected. In
                                       addition to detecting problems in these GSA programs and operations, the
                                       OIG is responsible for initiating actions to prevent fraud, waste, and abuse
                                       and to promote economy and efficiency. When systemic issues are
                                       identified during investigations, they are shared with GSA management for
                                       appropriate corrective actions. During this period, criminal, civil, and other
                                       monetary recoveries totaled more than $8.7 million.

                                       Public Corruption Initiative
                                       The detection and investigation of criminal conduct by employees of GSA
                                       and other government employees and contractors doing business with GSA
                                       have been given top priority within the Office of Investigations. Our efforts
                                       have led to several prosecutions, sending the message to other government
                                       employees and the public that the Office of Inspector General is
   Public corruption                   aggressively pursuing public corruption.
   initiative leads to
   numerous arrests                    With the cooperation and assistance of several United States Attorneys’
                                       Offices, the Department of Justice (DOJ), and the Federal Bureau of
  of GSA employees.                    Investigation (FBI), many overt and covert investigations are ongoing to
                                       detect and prosecute corrupt public officials. The results have increased
                                       public awareness and added a deterrent effect.

                                       The following are examples of public corruption cases worked by the Office
                                       of Investigations during this reporting period.

                                       Former GSA Chief of Staff and U.S. Congressman Found Guilty in
                                       Public Corruption Investigation
                                       A major public corruption case being investigated by the OIG, the FBI, the
                                       Department of Interior OIG, and the Internal Revenue Service (IRS) was
                                       initiated when it was suspected that from May 16, 2002 until January 10,
                                       2004, David H. Safavian, GSA’s former Chief of Staff, aided a Washington,
                                       DC lobbyist in the lobbyist’s attempts to acquire GSA-controlled property in
                                       and around Washington, DC. In August 2002, this lobbyist took Safavian
                                       and others on a golf trip to Scotland.

                                       On June 20, 2006, a jury found Safavian guilty of obstructing the work of the
                                       GSA OIG and of lying to a GSA ethics official. It also convicted him of lying
                                       to the GSA OIG and making a false statement to the Senate Indian Affairs
                                       Committee. He had resigned from his White House post last year as the



12 Semiannual Report to the Congress
                    Promoting and Protecting Integrity



                       Federal Government’s chief procurement officer. On October 27, 2006,
                       Safavian was sentenced to 18 months incarceration and 2 years supervised
                       probation.

                       In a collateral investigation, on September 15, 2006, Congressman Robert
                       Ney pled guilty to conspiracy in violation of post-employment restrictions for
                       former Congressional staff members, mail and wire fraud, and depriving the
                       public of honest services.

                       Former GSA Employees Pled Guilty to Making False Claims
                       A joint investigation with the DoD Criminal Investigative Service and the IRS
                       was initiated when our audit office reported possible irregularities with the
                       issuance of an IT task order designated for full and open competition.

                       The investigation disclosed that the former Federal Technology Service
                       (FTS) program director, one of his employees (a supervisory IT specialist),
                       and a GSA contractor employee (who was the IT specialist’s daughter) used
                       their respective positions to arrange no-show jobs for a company that held
   GSA director        contracts to provide IT-related support services to the U.S. Army at Fort
    involved in        Monmouth, New Jersey. The company then billed the Army for services,
                       which the director approved—approximately $283,000 in payment claims for
procurement fraud      work that the company did not perform. The contractor’s employee received
      scheme.          $125,424 in salary for performing almost no work.

                       Further investigation disclosed that the FTS director and his employee
                       arranged for a company on a separate GSA contract to be a subcontractor
                       and were paid $555,710 for GSA IT-related services. The contractor’s
                       employee received $156,788 in salary for performing almost no work.

                       The FTS director hired a second company, “R-ZED Engineering,” (a sole
                       proprietorship he controlled) as a subcontractor for the second company’s
                       GSA contract. The director mailed approximately 35 payments, totaling
                       $151,500, to a post office box that he had opened in the name of R-ZED
                       Engineering. R-ZED Engineering never performed any work as a
                       subcontractor. Instead, he deposited the second company’s checks into
                       either his personal bank account or an account he controlled in the name of
                       “R-ZED Engineering Services.”

                       The FTS program director pled guilty to conspiracy to defraud the United
                       States by making false claims and to tax evasion. The IT specialist pled
                       guilty to filing false claims. The IT specialist’s daughter pled guilty to
                       conspiracy to defraud the United States by making false claims. Sentencing
                       is pending for all three individuals.

                       GSA Employee Pleads Guilty to Accepting Bribes
                       During an investigation of Trataros Construction Inc. (TCI), the president of
                       TCI, pursuant to a nonprosecution agreement with the U.S. Attorney’s Office,



                                                                  April 1, 2006 – September 30, 2006 13
                              Promoting and Protecting Integrity



                                       disclosed that he paid cash bribes to a former GSA Public Buildings Service
                                       (PBS) architect. TCI was the prime GSA PBS contractor on the U.S. Post
                                       Office and Courthouse project in Old San Juan, Puerto Rico.

    GSA architect                      The investigation disclosed that TCI paid cash bribes to the former architect
  guilty of accepting                  in exchange for his assistance on the project. At the time of the bribe
                                       payments, the architect was the GSA contracting officer’s representative.
        bribes.                        The contract value was over $23 million. In exchange for the bribe
                                       payments, the architect agreed not to negotiate aggressively on behalf of
                                       GSA PBS when TCI submitted requests for payment on change orders.
                                       Additionally, he agreed to recommend approval of the claims for progress
                                       payments submitted by TCI that overstated the work completed on the
                                       project. The GSA employee pled guilty to bribery and was sentenced to
                                       3 years probation and ordered to pay $6,000 in restitution and a
                                       $100,000 fine.

                                       Former GSA Official Sentenced in Procurement Fraud Case
                                       An investigation was initiated when it was reported that the director of GSA’s
                                       National Center for Utilities Management was accepting cash payments from
                                       Tiger Natural Gas, Inc. (Tiger) of Tulsa, Oklahoma. The director was
                                       responsible for buying natural gas in bulk for Federal facilities, including
                                       prisons and hospitals, around the country.

                                       The investigation disclosed that the director accepted gratuities from Tiger.
                                       Specifically, it was found that Tiger provided the director with $14,000 in
                                       meals and entertainment and gave his wife $11,000 in exchange for allowing
                                       the company to overcharge the government. In exchange, the director
                                       invited Tiger to overcharge Federal prisons, hospitals, and other facilities.

                                       The director resigned from his position as director of a GSA office when he
                                       was targeted by investigators looking into a scheme to overcharge the
                                       government for natural gas. He pled guilty to conspiracy to engage in
                                       conflicts of interest and was sentenced to 6 months home confinement and
                                       3 years probation.

                                       Previously, Tiger agreed to pay $11 million in fines and restitution to the
                                       government to settle civil litigation resulting from this case.

                                       PBS Director Pleads Guilty in Property Management Scheme
                                       An investigation was initiated when it was alleged that a GSA PBS employee
     PBS director                      had approved contracts in which she had a financial interest. The U.S.
                                       Attorney for the Western District of Kentucky filed a criminal information
     charged with                      charging the GSA director of the Kentucky Property Management Center
  criminal conflict of                 with approving government contracts that benefited her financially.
       interest.
                                       The director had direct authority over a number of GSA contractors,
                                       including a GSA contractor who at various times employed her live-in


14 Semiannual Report to the Congress
Promoting and Protecting Integrity



   companion and her two dependent children. Despite this knowledge and
   corresponding financial interest, she participated personally and substantially
   through the decision, approval, and recommendation of government
   contracts for this GSA contractor. It is illegal for a Federal employee to
   participate in the approval or recommendation of a government contract that
   would financially benefit them. The director pled guilty to acts affecting
   personal interest. She was sentenced to 2 years probation, fined, and
   agreed not to seek re-employment with GSA or any other government
   agency; she also resigned from her position with GSA.

   GSA FTS Director Pleads Guilty to Theft of Government Property
   An investigation was initiated based on information received indicating that a
   GSA FTS director knowingly submitted fraudulent claims to the U.S.
   Government involving two separate personal trips. In April 2005, the director
   purchased an airline ticket on her government travel account for an
   unauthorized trip. In May 2005, the director filed a travel voucher for
   unauthorized meals and an unapproved round trip airline ticket. She pled
   guilty to theft of government property and was sentenced to 100 hours of
   community service and ordered to pay restitution.

   Two GSA Contractor Employees Conspired to Steal and Depredate
   Government Property
   A joint investigation with the U.S. Marshals Service disclosed that two GSA
   contractor employees conspired to steal and depredate U.S. Government
   property from a cellblock that was under construction at the new U.S. District
   Courthouse in the Eastern District of New York. The U.S. property consisted
   of security surveillance equipment valued at approximately $192,000.

   Specifically, the employees attempted to use a drill, a hammer, and a lock
   picking kit to open the lock on the cell door. They committed depredation of
   GSA property by attempting to bypass the security system by performing an
   electrical override to disable the electronic lock on the cell doors, which
   damaged the system. The total cost of the damage to the security system
   was approximately $31,000. The contractors pled guilty to conspiracy to
   commit depredation against property of the United States and were each
   sentenced to 3 years probation and ordered to pay a fine and restitution.

   Government Employee Pleads Guilty to Wire Fraud
   An investigation was initiated when it was alleged that a U.S. Army
   employee and his girlfriend conspired to defraud the U.S. Government
   through knowingly making and submitting false and fictitious invoices to the
   government for work and services on GSA contracts that they did not
   perform.

   The investigation disclosed that the employee used his official position as
   contracting officer technical representative to obtain more than $150,000
   from the government by directing prime contractors to subcontract with two


                                              April 1, 2006 – September 30, 2006 15
                              Promoting and Protecting Integrity



                                       companies in which he had financial interest. He pled guilty to wire fraud
                                       and was sentenced to 24 months incarceration, 3 years supervised
                                       probation, and ordered to pay $150,049 in restitution.

                                       GSA Contractor Pleads Guilty to Mail Fraud
                                       A joint investigation with the FBI disclosed that a former assistant project
                                       manager with ADF Steel Corporation (ADF) was accepting cash payoffs on
                                       various commercial, city, and Federal jobs. It was determined that ADF was
                                       a subcontractor under J.A. Jones Construction Company in the GSA PBS
   GSA contractor                      renovation contract of the Brooklyn Federal Courthouse.
  guilty of accepting
                                       The investigation found that the manager defrauded the owners of ADF and
      kickbacks.                       ultimately the government, by accepting payoffs from a subcontractor who
                                       worked on the Courthouse project. The manager had the subcontractor
                                       inflate bids for work in the Courthouse project and various other jobs to
                                       include a cash payoff to him of 15 percent of the bid. He accepted at least
                                       $13,000 from the subcontractor. The manager pled guilty to mail fraud and
                                       was sentenced to 3 years probation and ordered to pay restitution in the
                                       amount of $9,100.

                                       SBA Official Found Guilty of Bribery
                                       A joint investigation was conducted in conjunction with the DOJ Antitrust
                                       Division, Atlanta, Georgia Field Office; the U.S. Small Business
                                       Administration (SBA), Office of Inspector General; and the FBI when it was
                                       alleged that the assistant district director for the SBA’s 8(A) Business
                                       Development Program in Puerto Rico and the U.S. Virgin Islands used his
                                       position to obtain monies for his personal benefit from a GSA contractor that
                                       did business through this program. The investigation found that the director
                                       requested and received over $20,000 in cash from the GSA contractor in
                                       order to ensure that he did not adversely affect the contractor’s business
                                       dealings with the SBA. Additionally, in exchange for the $20,000, the
                                       contractor received over $3 million in 8(A) contracts, renewals, or extensions
                                       for his business. On August 22, 2006, a Federal jury in the U.S. District
                                       Court/District of Puerto Rico found the former director guilty of bribery;
                                       sentencing is pending.

                                       GSA Contractor Pleads Guilty to Using Surplus Government Property
                                       to Defraud the State of Missouri
                                       A joint investigation with the U.S. Postal Inspection Service, IRS, and the
                                       State of Missouri Attorney General’s Office revealed that the owner of
    Contractor uses                    Electrics and More purchased GSA surplus property and stored it in his
                                       warehouse in Missouri. By establishing a large inventory of computer and
     GSA surplus                       medical equipment through GSA auctions, he was able to create fictitious
   property program                    invoices for newer equipment not actually housed in his warehouse.
   to defraud state.
                                       The owner claimed that he furnished “new” medical and computer
                                       equipment to educational programs in Missouri and obtained over $2 million


16 Semiannual Report to the Congress
Promoting and Protecting Integrity



   in Missouri tax credits. When the inventory was questioned, there was a
   suspicious fire. The owner pled guilty to mail fraud and money laundering
   and was sentenced to 60 months confinement, 36 months parole, and
   ordered to pay restitution in the amount of $2,004,813.

   GSA Contract Employees Plead Guilty to Conspiracy and Theft of
   Government Property
   An investigation revealed that four former contract employees of TMI
   Management Systems, Inc., GSA Eastern Distribution Center (EDC) were
   stealing government property valued at approximately $311,000 from the
   GSA EDC and then selling the property on eBay and at local flea markets.
   The execution of search warrants at one contract employee’s residences
   confirmed allegations. Two of the contractors have pled guilty to conspiracy
   and theft of government property; sentencing is pending. Charges are
   pending for the other two contract employees.

   President of Gate Engineering Corporation Sentenced for Making
   Kickback Payments
   A joint investigation by the OIG, the DOJ Antitrust Division, and the SBA OIG
   disclosed that the president of Gate Engineering Corporation (Gate), a GSA
   contractor, was paying off the technical services supervisor at Tricon
   Restaurants International (Tricon) in exchange for Tricon awarding electrical
   contracts to Gate.

   The investigation revealed that the technical services supervisor conspired
   with the president of Gate. While employed with Tricon, the supervisor
   received over $31,000 in payoffs from the president of Gate in exchange for
   directing over $1 million in electrical contract work to Gate. A Federal jury
   found the supervisor guilty of conspiracy and sentenced him to 12 months
   and 1 day incarceration and 2 years supervised release. Pursuant to a plea
   agreement, the president pled guilty to making kickback payments and was
   sentenced to 12 months home confinement with electronic monitoring,
   4 years probation, 400 hours of unpaid community service (100 hours per
   year), and was ordered to pay a fine of $250,000.

   Also, the defendant’s attorney in the Gate case was found guilty by a
   Federal jury of conspiracy, witness tampering, and obstruction of an
   investigation and was sentenced to 33 months imprisonment, 3 years
   supervised probation, 120 hours community service, and ordered to
   surrender his law license.

   President of Company Pleads Guilty to Theft of Government Property
   A joint investigation with the U.S. Air Force, Office of Special Investigations
   disclosed that Bald Industries (BI) did not deliver items ordered by the Air
   Force from the company. The investigation revealed that the Air Force
   placed an order on a GSA contract with BI for two walk-in freezers and four
   refrigerators. BI received payment for the order but the president made false


                                              April 1, 2006 – September 30, 2006 17
                              Promoting and Protecting Integrity



                                       statements to his supplier that there were money restrictions with the
                                       military, and instructed the supplier to modify the delivery of the refrigeration
                                       units. As a result, only two refrigeration units were shipped to the Air Force.

                                       The president of BI pled guilty to theft of government property and was
                                       sentenced to 4 months incarceration, 3 years supervised probation, and
                                       ordered to pay $41,052 in restitution.

                                       GSA Contractor Pleads Guilty to Fraud and False Statements
                                       An investigation was initiated when the DOJ OIG reported that six
                                       companies might have been involved in bid rigging and/or false statements
                                       or false claims in connection with Department of Homeland Security, DoD,
                                       and GSA construction contracts. The ongoing investigation disclosed that
                                       the owner of one of the six companies knowingly and willfully made material
                                       false, fictitious, and fraudulent statements to the U.S. Coast Guard (USCG)
                                       Civil Engineering Unit on a mechanical rehabilitation project.

                                       Specifically, the USCG issued a bid solicitation for the mechanical
                                       rehabilitation of a sandblast building. The bid solicitation for the USCG
                                       project required each bidding party to provide three references for prior jobs
                                       performed. In response to the bid solicitation the owner had a subordinate
                                       prepare a bid that included three job references, including a fire sprinkler
                                       retrofit project. At the time the subordinate included the job references in the
                                       USCG project bid, the owner was aware that the fire sprinkler retrofit job
  Bid-rigging scheme                   reference was false, and that he never performed the project. The USCG
      uncovered.                       bid, which contained the fraudulent job reference, was signed on the owner’s
                                       behalf with his authorization and sent from his offices in Mesa, Arizona to the
                                       USCG office in Cleveland, Ohio for the mechanical rehabilitation of a
                                       sandblast building.

                                       On August 1, 2006, the owner pled guilty to fraud and false statements and
                                       was sentenced to 3 years supervised probation and ordered to pay a
                                       $5,000 fine.

                                       Works Progress Administration Artwork Recovered
                                       During the depths of the Great Depression, the Federal Government under
                                       the Works Progress Administration (WPA) (later renamed the Work Projects
                                       Administration) employed thousands of artists to create public art. As a
                                       result, numerous works of art adorned Federal buildings throughout the
       WPA artwork                     nation. Since 1949, GSA has been the custodian of the WPA works of art.
        recovered.                     Some artists who got their start working under the program became
                                       renowned, and the works they created became quite valuable. In the
                                       1990’s, GSA initiated a project to identify, locate, catalog, and recover
                                       lost/stolen WPA paintings.




18 Semiannual Report to the Congress
Promoting and Protecting Integrity



   In 2001, to facilitate the recovery of missing artwork, a list of 136 pieces of
   lost/stolen artwork was developed by GSA fine arts specialists. This
   information was coordinated with DOJ and listed in a stolen art database
   maintained by the FBI. Fine arts dealers are required to check this database
   prior to the sale of any work of art.

   In June 2006, an R.A.D. Miller painting titled House With Fence (which is the
   property of GSA and part of the WPA project) was identified on the Internet
   site of the Sanford Alderfer Auction Company in Hatfield, Pennsylvania. The
   auction house provided the name and contact information of the consigner of
   the painting being auctioned. A joint investigation and counsel review led to
   the successful recovery and return of the painting to the control of the U.S.
   Government. The value of the painting is estimated at $15,000. After final
   cataloging and appraisal, the painting was subsequently loaned to the
   James A. Michner Art Museum in Bucks County, Pennsylvania for public
   display. We continue to review and assist in the recovery of missing/stolen
   WPA artwork.

   Telecommunications Fraud
   The OIG continues to be a principal participant in the New York Electronic
   Crimes Task Force (NYECTF), which has been investigating
   telecommunications fraud primarily involving Federal facilities within the New
   York metropolitan area. GSA is the principal provider of telecommunications
   services for these facilities. NYECTF members include the Secret Service,
   Department of Defense, Department of Justice, New York City Police, and
   telecommunications industry representatives.

   A fraud investigation was initiated when Alltel Communications, Inc. (Alltel)
   disclosed to members of the NYECTF that an individual was engaged in a
   fraudulent telecommunications activity known as “social engineering.” The
   investigation found that the individual misrepresented himself as an Alltel
   customer service representative and fraudulently obtained personal account
   information from at least 29 separate customer accounts. After obtaining the
   victims’ account information, he opened additional phone lines and obtained
   approximately 25 mobile phone handsets under the names of these victims
   and had them shipped to his residence. On June 12, 2006, the individual
   pled guilty to conspiracy to commit mail fraud and aggravated identity theft;
   sentencing is pending.

   Another NYECTF fraud investigation disclosed that the owner of a T-Mobile
   dealer and five of his employees were involved in a scheme whereby they
   fraudulently obtained the identities of T-Mobile cellular telephone customers
   and then used this information to illegally obtain, without the consent or
   knowledge of the victims, large numbers of mobile handsets from T-Mobile.
   Industry specialists for T-Mobile indicate that the losses associated with the
   fraudulent handset orders are approximately $674,600. The owner pled
   guilty to conspiracy to commit wire fraud, conspiracy to commit mail fraud,



                                              April 1, 2006 – September 30, 2006 19
                              Promoting and Protecting Integrity



                                       and aggravated identity theft and is scheduled to be sentenced on
                                       October 24, 2006. Of the five employees, two pled guilty to conspiracy to
                                       commit mail fraud; two pled guilty to conspiracy to commit wire fraud and
                                       aggravated identity theft; and one pled guilty to wire fraud, fraud with an
                                       access device, and destruction of records. Sentencing for these individuals
                                       have not been determined.

                                       Fleet Charge Card Initiative
                                       During FY 2006, the OIG received reimbursable funding from the GSA fleet
                                       program to place an increased investigative emphasis on charge card fraud.
                                       The fleet card program at the OIG examines the use of these charge cards
                                       at commercial service stations under vehicle leasing agreements with
                                       various Federal agencies. The initiative entails investigative staff identifying
                                       both the accounting anomalies associated with the current billing procedures
                                       and instances of criminal fraud and abuse associated with improper card
                                       usage. The OIG initiative on the investigative side has resulted in the
                                       following:

                                       • From October 2005 through September 2006, the OIG worked on
                                         58 investigations dealing with fleet card fraud.
   Charge card fraud
   initiative leads to                 • To date, these cases have resulted in 63 judicial actions including
                                         19 indictments and 44 criminal convictions.
    44 convictions.
                                       • The monetary returns paid by defendants totaled $402,256 in restitution,
                                         fines, and special assessments. In addition, the GSA fleet program has
                                         been able to identify and cancel numerous charge cards that have been
                                         misused and bill back the agencies assigned the cards.

                                       • Analysis of GSA fleet card investigations indicates that enforcement
                                         actions during the past year may have averted as much as $2 million in
                                         potential losses to the Agency.

                                       • Examples of the types of cases investigated under this initiative include:
                                         double-billing for purchases at a service station, multiple purchases on the
                                         same day for personal use, and theft and illegal use of a fleet card.

                                       During this reporting period, the following fleet charge card cases were
                                       investigated by the Office of Investigations.

                                       • A joint investigation by the OIG and the Amtrak OIG determined that a gas
                                         station attendant in New Jersey was making unauthorized fuel charges
                                         using a fleet card assigned to Amtrak. It was found that multiple, same
                                         day fuel purchases were made on several Amtrak vehicles leased through
                                         the GSA Fleet Management Program. The fuel purchases totaled over
                                         $2,999. He pled guilty to theft charges.




20 Semiannual Report to the Congress
Promoting and Protecting Integrity



   • An investigation was initiated when it was reported that a fleet card issued
     to a National Guard Unit was lost, yet daily purchases of gas with the card
     were being recorded. Video surveillances captured the fraudulent use of
     the card by four individuals. Two of the individuals pled guilty to theft of
     government property. One was sentenced to serve 36 months probation,
     3 months of home detention, and was ordered to pay restitution in the
     amount of $10,888. The other individual was sentenced to
     12 months probation and ordered to pay restitution.

   • A joint investigation by the OIG and the Department of Veterans Affairs
     (VA) revealed that a VA employee was fraudulently using four fleet cards
     assigned to the Veteran’s Medical Center in Philadelphia, Pennsylvania.
     It was found that the employee used the cards to purchase gas for known
     cocaine dealers and received either cocaine or cash at 60 cents on the
     dollar in payment. He pled guilty to theft of government property and was
     sentenced to 3 years supervised probation and ordered to pay restitution
     in the amount of $9,559.

   • An investigation was initiated when it was reported that six gas cards
     were reported missing from an Albuquerque Auto Action in New Mexico.
     The investigation revealed that an individual stole the fuel cards when a
     government agency turned in its vehicle. The individual then used the
     cards to fraudulently purchase gas. The individual, an employee of the
     auto action company, pled guilty to theft charges and was sentenced to
     serve 100 hours of community service and ordered to pay restitution.

   • A joint investigation by the OIG and the AMTRAK Police Department
     determined that a National Railroad Passenger Corporation employee
     was making unauthorized fuel charges using a fleet card he stole from the
     corporation. The fuel purchases totaled over $7,615. He pled guilty to
     theft charges and resigned from his position.

   • An investigation was initiated after GSA reported that the same gas card
     was being used to make multiple fuel purchases on the same day, often
     within minutes of one another. The individual admitted that he purchased
     the gas card for $80 and had been using the card to fuel his car as well
     as those of his friends and family. He pled guilty to theft of government
     property; sentencing is pending.

   • An investigation was initiated when it was reported that a gas card
     assigned to a GSA vehicle leased to the Colville Confederated Tribes was
     missing. The investigation disclosed that an individual was using the
     stolen gas card for his personal gain. He pled guilty to embezzlement
     and conversion of public property in the amount of $925; sentencing is
     pending.

   • An investigation was initiated when it was reported that a reservist with
     the Georgia Army National Guard stole a fleet card from the Fort


                                              April 1, 2006 – September 30, 2006 21
                              Promoting and Protecting Integrity



                                         McPherson military base. He was charged with using a stolen fleet card
                                         to purchase fuel from several fuel service stations.

                                       • An investigation was initiated when it was reported that gas cards
                                         assigned to vehicles leased by the National Oceanic and Atmospheric
                                         Association were being used to make multiple gas purchases on the
                                         same day. A husband and wife were indicted for theft of government
                                         property.

                                       • An investigation was initiated when it was reported that possible
                                         unauthorized purchases of gas were being made with a gas card issued
                                         to a vehicle leased by GSA to the Department of the Army. The
                                         investigation revealed that an Army specialist and her fiancé were using
                                         the card to fill up their personal cars as well as their friends’ cars. Both
                                         pled guilty to theft of government property and were sentenced to
                                         24 months probation and ordered to pay $3,000 in restitution.

                                       • An employee of the Department of Public Works was arrested for gas
                                         card fraud. The investigation disclosed that the employee used a gas
                                         card assigned to the Department to fuel two privately-owned vehicles and
                                         vehicles owned by other individuals. The loss to the government totaled
                                         approximately $2,800.

                                       • An employee of the Bureau of Engraving and Printing pled guilty to theft
                                         of government property. The investigation revealed that the employee
                                         used a gas card for a vehicle assigned to Saint Elizabeth’s Hospital to fuel
                                         a privately-owned vehicle. He was sentenced to 12 months probation,
                                         50 hours of community service, and ordered to pay $2,667 in restitution.

                                       • An employee of the U.S. Postal Service (USPS) was arrested for grand
                                         larceny. The investigation disclosed multiple, same-day fuel purchases
                                         minutes apart from each other at various gas stations using a gas card
                                         assigned to the USPS. The employee admitted to fraudulently using the
                                         card to refuel his personal vehicle and selling gasoline at a discount to
                                         conspirators. The loss to the government was approximately $2,648.

                                       Significant Civil Actions
                                       AT&T Pays $2.9 Million for Overcharging Government Customers
                                       In a settlement agreement signed June 6, 2006, AT&T Corporation (AT&T)
                                       agreed to pay $2.9 million to settle a qui tam complaint relating to
                                       overcharges for telecommunications services. The complaint alleged that
                                       AT&T, during its FTS bridge contract from 1998 to 2001, overcharged the
                                       government with regard to Pre-Subscribed Interexchange Carrier Charges
                                       (PICCs). Under the contract, AT&T was allowed to pass through to the
                                       government “actual charges” associated with the PICCs. However,




22 Semiannual Report to the Congress
Promoting and Protecting Integrity



   according to the relator, AT&T passed through to the government costs and
   fees for PICCs in excess of what was allowed under the contract.

   Construction Company Pays $1.9 million for False Certifications About
   Payments to Subcontractors
   On April 10, 2006, The Hunt Corporation (Hunt) agreed to pay $1.9 million to
   settle a potential civil False Claims Act case relating to Hunt’s withholding of
   payments to its subcontractors under its contract with PBS for the
   construction of the United States Federal Building and Courthouse in
   Hammond, Indiana. In each of its progress payment applications to GSA,
   Hunt officials certified that Hunt was in compliance with the timely payment
   requirements of the Federal Acquisition Regulation and its contract, i.e. that
   payments to subcontractors had already been made, or would be made in a
   timely manner from the proceeds of each payment received from GSA, and
   that the requests for progress payments did not include any amounts which
   Hunt intended to withhold or retain from its subcontractors. The case
   stemmed from a GSA OIG audit of progress payments made to Hunt, which
   was initiated as a result of complaints to PBS officials by Hunt
   subcontractors that they were not being paid in a timely manner.

   An OIG investigation, performed under the supervision of the United States
   Attorney’s Office for the Northern District of Indiana, and the Commercial
   Litigation Branch, Civil Division, Department of Justice, confirmed the
   findings of the audit report, and found a widespread practice by Hunt of
   retaining money from its subcontractors while billing GSA for the entire
   amount of its progress, as measured by the schedule of values in place
   during the contract.

   Suspension and Debarment Initiative
   The GSA has a responsibility to ascertain whether the people or companies
   they do business with are eligible to participate in federally assisted
   programs and procurements, and that they are not considered “excluded
   parties.” Excluded parties are individuals and companies debarred,
   suspended, proposed for debarment, or declared ineligible to receive
   contracts by a Federal agency. The Federal Acquisition Regulation
   authorizes an agency to suspend or debar individuals or companies for the
   commission of any offense indicating a lack of business integrity or business
   honesty that directly affects the present responsibility of a government
   contractor or subcontractor. The OIG has made it a priority to assist GSA in
   ensuring that the government does not award contracts to individuals or
   companies that lack business integrity or honesty. Additionally, the OIG
   assisted the Department of Interior (DOI) OIG in reviewing and analyzing
   several of their investigations for potential debarment action. The GSA OIG
   processed 13 completed DOI investigations and made recommendations for
   consideration of debarment to the GSA suspension/debarment official during
   this reporting period.



                                               April 1, 2006 – September 30, 2006 23
                              Promoting and Protecting Integrity



                                       During this reporting period, the OIG made 111 referrals for consideration of
                                       suspension/debarment to the GSA Office of Acquisition Policy. This period
                                       GSA issued 53 suspension and 48 debarment actions based on OIG
                                       referrals. Currently, 253 OIG referrals are pending decisions/actions by the
                                       Agency.

                                       Integrity Awareness
                                       The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                       employees on their responsibilities for the prevention of fraud and abuse and
                                       to reinforce employees’ roles in helping to ensure the integrity of Agency
                                       operations.

                                       This period, we presented 21 briefings attended by 207 regional employees.
                                       These briefings explain the statutory mission of the OIG and the methods
                                       available for reporting suspected instances of wrongdoing. In addition,
                                       through case studies, the briefings make GSA employees aware of actual
                                       instances of fraud in GSA and other Federal agencies and thus help to
                                       prevent their recurrence. GSA employees are the first line of defense
                                       against fraud, abuse, and mismanagement. They are a valuable source of
                                       successful investigative information.

                                       Hotline
                                       The OIG Hotline provides an avenue for employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in
                                       GSA-controlled buildings encourage employees to use the Hotline. We also
                                       use our FraudNet Hotline platform to allow Internet reporting of suspected
                                       wrongdoing. During this reporting period, we received 1,121 Hotline
                                       contacts. Of these contacts, 235 Hotline cases were initiated. In 134 of
                                       these cases, referrals were made to GSA program officials for review and
                                       action as appropriate, 43 cases were referred to other Federal agencies for
                                       follow up, 32 were referred for OIG criminal/civil investigations or audits, and
                                       26 did not warrant further review.

                                       GSA OIG Receives OSC Certification
                                       On September 26, 2006, the U.S. Office of Special Counsel certified that the
                                       GSA Office of Inspector General has successfully met all of the requirements
                                       of 5 U.S.C. §2302(c). The certification means that the GSA OIG has
                                       demonstrated its commitment to ensuring that its employees are fully aware
                                       of their rights and responsibilities under the Whistleblower Protection Act. To
                                       obtain the certification, the GSA OIG provided both written and oral training
                                       to its supervisors, ensuring that they understand how to identify and respond
                                       to whistleblower complaints.

                                       Hurricane Katrina
                                       The Federal Inspector General community, coordinated through the
                                       President’s Council on Integrity and Efficiency/Executive Council on Integrity


24 Semiannual Report to the Congress
Promoting and Protecting Integrity



   and Efficiency (PCIE/ECIE), initiated an aggressive review of agencies’
   response efforts to the Gulf Coast hurricane disasters. The Department of
   Justice established a fraud task force that includes Federal, state, and local
   law enforcement agents. These actions focus on ensuring relief funds were
   spent wisely; improving agency response to disasters; and identifying fraud,
   waste, and abuse early in the process.

   As part of the PCIE Katrina working group, we have initiated an audit that
   assesses the effectiveness of GSA’s response to Hurricane Katrina. Under
   the 2004 National Response Plan, which is the Federal Government’s
   unified approach to disasters, GSA serves a central role in procuring
   equipment and services used by the Federal Emergency Management
   Agency (FEMA). GSA has awarded approximately $1 billion in contracts on
   FEMA’s behalf. In these procurements, FEMA uses GSA contracting
   professionals to award contracts for which FEMA has identified the
   procurement requirement and is billed directly. In our ongoing audit, we are
   examining 255 of GSA’s procurements for FEMA totaling over $695 million.
   In addition, we are also reviewing charges against mission assignments as
   well as the related management controls and processes internal to GSA.
   While we are continuing with our audit, we have been providing preliminary
   observations to management, through audit memoranda, to provide timely
   feedback during the current hurricane season.

   Additionally, GSA has responsibilities as the landlord to Federal agencies in
   the affected area to locate or repair space so that the agencies may continue
   their missions. Initially, 84 facilities in four states were affected. We are
   examining GSA’s role as landlord during the response to Hurricane Katrina.

   Protecting Personally Identifiable Information
   Following numerous high profile incidents involving the substantial
   compromise or loss of sensitive personal information associated with the
   growing threat of identity theft, the Office of Management and Budget issued
   memorandum M-06-16, on June 23, 2006. The memorandum stresses that
   Federal agencies need to take all necessary/reasonable measures to swiftly
   eliminate significant vulnerabilities to the sensitive information entrusted to
   them. It required agencies to take specified actions to ensure that
   safeguards are in place and appropriately reviewed within 45 days from the
   issuance of the memorandum. As part of the PCIE/ECIE initiative, we
   performed a fast paced assessment of GSA’s compliance with the
   requirements of the memorandum. The PCIE/ECIE drafted a report
   summarizing the Inspectors General’s findings and agencies’ actions.




                                              April 1, 2006 – September 30, 2006 25
                               Governmentwide Policy Activities



                                       We regularly provide advice and assistance on governmentwide policy
                                       matters to the Agency, as well as to other Federal agencies and to
                                       committees of Congress. In addition, as required by the Inspector General
                                       Act of 1978, we review existing and proposed legislation and regulations to
                                       determine their effect on the economy and efficiency of the Agency’s
                                       programs and operations and on the prevention and detection of fraud and
                                       mismanagement. Because of the central management role of the Agency in
                                       shaping governmentwide policies and programs, most of the legislation and
                                       regulations reviewed invariably affect governmentwide issues in areas such
                                       as procurement, property management, travel, and government
                                       management and information technology systems.

Interagency                            This period, we provided advice and assistance to the Office of Management
                                       and Budget (OMB) on various procurement policy issues. In addition, we
Committees and                         participated on a number of interagency committees and working groups that
Working Groups                         deal with cross-cutting and governmentwide issues:

                                       • The IG is a participating member of the PCIE/ECIE Homeland Security
                                         Roundtable, headed by the IG of the Department of Homeland Security.
                                         The Homeland Security focus of the Roundtable was a springboard for a
                                         review of the Federal response efforts to Hurricane Katrina and Hurricane
                                         Rita. The Roundtable meets quarterly to help coordinate efforts of the IG
                                         community, to ensure accountability of the Federal money being spent in
                                         those response efforts, and to deter waste, fraud, and abuse.

                                       • The Deputy Inspector General represents all civilian government agencies
                                         on the Cost Accounting Standards Board, an independent board within
                                         OMB’s Office of Federal Procurement Policy, which promulgates, amends,
                                         and revises Cost Accounting Standards designed to achieve uniformity
                                         and consistency in cost accounting practices by individual government
                                         contractors.

                                       • The Acting Assistant Inspector General for Auditing co-chairs the IT
                                         Committee under the PCIE Federal Audit Executive Council. This
                                         Committee is responsible for leading discussion and reaching consensus
                                         among all of the OIGs regarding a myriad of IT issues, including proposed
                                         legislation and regulations, OMB questions and reporting requirements,
                                         and IT audit approaches and best practices. OIG audit representatives
                                         participate in the Federal Audit Executive Council’s IT Committee to
                                         develop approaches and techniques for conducting IT security audits
                                         under the Federal Information Security Management Act (FISMA). Audit
                                         representatives also participate in the PCIE IT Roundtable to discuss
                                         various methodologies and best practices for conducting IT audits.

                                       • The Acting Assistant Inspector General for Auditing participates in the
                                         After Action/Lessons Learned Working Group in response to the Katrina
                                         disaster, under the PCIE/ECIE Homeland Security Roundtable.



26 Semiannual Report to the Congress
                  Governmentwide Policy Activities



                     • Our TeamMateTM Technical Support Group participates in the TeamMateTM
                       Federal Users Group and the PricewaterhouseCoopers TeamMateTM
                       Users Group to discuss concerns and new challenges facing TeamMateTM
                       users. TeamMateTM is an automated audit workpaper management
                       system designed to make the audit process more efficient.

Legislation and      During this reporting period, the OIG reviewed 140 legislative matters and
                     12 proposed regulations.
Regulations




                                                               April 1, 2006 – September 30, 2006 27
                               Professional Assistance Services



                                       Government Auditing Standards prohibit Federal audit organizations from
                                       performing certain types of management consulting projects because they
                                       may impair the independence of the auditors when performing subsequent
                                       audit work in the same area. To maintain our independence when working
                                       closely with GSA management, we carefully assess our services to ensure
                                       compliance with the standards. As allowed under the standards, we are
                                       continuing our participation on Agency improvement task forces, committees,
                                       and working groups in an observer or advisory capacity.

                                       Task Forces, Committees, and Working Groups. The OIG provides
                                       advice and counsel to GSA while monitoring ongoing Agency initiatives. Our
                                       representatives advise management at the earliest possible opportunity of
                                       potential problems, help ensure that appropriate management controls are
                                       provided when installing new or modifying existing Agency systems, and
                                       offer possible solutions when addressing complex financial and operational
                                       issues.

                                       Our direct participation with the Agency on task forces, committees, and
                                       working groups allows us to contribute our expertise and advice, while
                                       improving our own familiarity with the Agency’s rapidly changing systems.
                                       We nevertheless maintain our ability to independently audit and review
                                       programs. Our participation on the task forces is typically as a
                                       nonvoting advisory member. We maintain a strict policy of excluding staff
                                       members who have served on developmental task forces from subsequent
                                       audits of the same subject areas.

                                       Some areas in which we have been involved this period include:

                                       • Single Audit Act Activities. The Single Audit Act established uniform
                                         audit requirements for state and local governments receiving Federal
                                         awards. The non-Federal entities that receive Federal awards under
                                         more than one Federal program are required to undergo a single audit to
                                         prevent duplicate audits and inefficiencies. Each Federal agency monitors
                                         the non-Federal entity’s use of awards provided by the Agency, and
                                         assesses the quality of the audits conducted relative to its program. The
                                         OIG monitors these activities primarily as they relate to the personal
                                         property disposal program.

                                       • Multiple Award Schedule Working Group. The Multiple Award
                                         Schedule (MAS) Working Group was established as a result of an OIG
                                         report released in August 2001 relating to MAS contracting pricing
                                         practices. The MAS Working Group is primarily comprised of members of
                                         the Federal Acquisition Service (FAS) and the OIG, with representation
                                         also from the Office of General Counsel and the Office of the Chief
                                         Acquisition Officer. The Working Group has served as an effective
                                         institutionalized communications channel for both broad policy issues and
                                         discrete issues having to do with particular contracts or reviews.



28 Semiannual Report to the Congress
Professional Assistance Services



     The Working Group has had several areas of focus, including preaward
     contract reviews and MAS negotiations issues. The Working Group has
     developed guidance to MAS contracting officers (COs) regarding the
     performance and use of preaward MAS contract reviews. Further, the
     Working Group has reinvigorated the process by which FAS and the OIG
     collaboratively select and commence preaward reviews of vendors, and
     has built into this process specific mechanisms for COs to request
     reviews of particular vendors. The Working Group has focused on issuing
     guidance to COs regarding negotiation objectives and discrete negotiation
     issues for MAS contract awards. The Working Group also provided input
     to FAS in its efforts to upgrade or enhance pricing performance measures
     on MAS contracts.

   • GSA IT Governance Groups. Audit representatives participate as
     nonvoting members on three of GSA’s major IT governance teams and
     attend all meetings. The Information Technology Architecture Planning
     Committee defines the standards for GSA’s information technology in
     support of business goals and at the direction of the Information
     Technology Council (ITC). The ITC is comprised of senior IT staff
     members from the Office of the Chief Information Officer with GSA
     services, staff offices, and regions to collaboratively explore and
     determine actions needed to ensure that IT decisions have a sound
     business and IT investment basis. Senior audit representatives also
     participate in meetings of the Business Systems Council, a senior
     management forum chaired by the Deputy Administrator, which make
     decisions regarding major IT investments in conjunction with GSA’s
     Performance Management process, the Human Capital Planning process,
     the IT Capital Planning and Investment process, and ongoing business
     process changes for the Agency.




                                            April 1, 2006 – September 30, 2006 29
                      Statistical Summary of OIG Accomplishments



                                       Audit Reports Issued
                                       The OIG issued 70 audit reports during this reporting period. The 70 reports
                                       contained financial recommendations totaling $622,716,483 including
                                       $622,480,897 in recommendations that funds be put to better use and
                                       $235,586 in questioned costs. Due to GSA’s mission of negotiating
                                       contracts for governmentwide supplies and services, most of the savings
                                       from recommendations that funds be put to better use would be applicable
                                       to other Federal agencies.

                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring
                                       management decisions during this period, as well as the status of those
                                       audits as of September 30, 2006. There were no reports more than
                                       6 months old awaiting management decisions as of September 30, 2006.
                                       Table 1 does not include one report issued to other agencies this period.
                                       Table 1 also does not include five reports excluded from the management
                                       decision process because they pertain to ongoing investigations.


                       Table 1. Management Decisions on OIG Audits


                                                                            Reports with        Total
                                                            No. of            Financial       Financial
                                                           Reports        Recommendations Recommendations

    For which no management decision
    had been made as of 4/1/06
      Less than six months old                               39                  21             $ 112,216,801
      Six or more months old                                  0                   0                         0
    Reports issued this period                               69                  40               622,716,483
    TOTAL                                                   108                  61             $ 734,933,284
    For which a management decision
    was made during the reporting period
      Issued prior periods                                   39                  21             $ 112,216,801
      Issued current period                                  44                  21               405,998,742
    TOTAL                                                    83                  42             $ 518,215,543
    For which no management decision
    had been made as of 9/30/06
      Less than six months old                               25                  19             $ 216,717,741
      Six or more months old                                  0                   0                         0
    TOTAL                                                    25                  19             $ 216,717,741




30 Semiannual Report to the Congress
            Statistical Summary of OIG Accomplishments



                         Management Decisions on Audit Reports with
                         Financial Recommendations
                         Tables 2 and 3 present the audits identified in Table 1 as containing financial
                         recommendations by category (funds to be put to better use or questioned
                         costs).




          Table 2. Management Decisions on OIG Audits with
          Recommendations that Funds be Put to Better Use

                                                    No. of                       Financial
                                                   Reports                   Recommendations

For which no management decision had
been made as of 4/1/06
  Less than six months old                            19                     $ 103,855,576
  Six or more months old                               0                                 0
Reports issued this period                            36                       622,480,897
TOTAL                                                 55                     $ 726,336,473

For which a management decision was
made during the reporting period
TOTAL                                                 36                     $509,618,732*

For which no management decision had
been made as of 9/30/06
  Less than six months old                             19                    $ 216,717,741
  Six or more months old                                0                                0
TOTAL                                                  19                    $ 216,717,741

  *Management agreed with 100 percent of the recommended amount.




                                                                    April 1, 2006 – September 30, 2006 31
                      Statistical Summary of OIG Accomplishments




                       Table 3. Management Decisions on OIG Audits
                                  with Questioned Costs

                                                         No. of                     Questioned
                                                        Reports                       Costs

          For which no management decision
          had been made as of 4/1/06
            Less than six months old                         2                  $ 8,361,225
            Six or more months old                           0                            0
          Reports issued this period                         4                      235,586
          TOTAL                                              6                  $ 8,596,811

          For which a management decision
          was made during the reporting period
          TOTAL                                              6                  $10,327,538*

          For which no management decision
          had been made as of 9/30/06
            Less than six months old                         0                  $          0
            Six or more months old                           0                             0
          TOTAL                                              0                  $          0

          *Includes $1,730,727 that management decided to seek that exceeded recommended amounts.




32 Semiannual Report to the Congress
           Statistical Summary of OIG Accomplishments



                      Investigative Workload
                      The OIG opened 131 investigative cases and closed 61 cases during this
                      period. In addition, the OIG received and evaluated 53 complaints and
                      allegations from sources other than the Hotline that involved GSA
                      employees and programs. Based upon our analyses of these complaints
                      and allegations, OIG investigations were not warranted.

                      Referrals
                      The OIG makes criminal referrals to the Department of Justice or other
                      authorities for prosecutive consideration and civil referrals to the Civil
                      Division of the Department of Justice or U.S. Attorneys for litigative
                      consideration. The OIG also makes administrative referrals to GSA officials
                      on certain cases disclosing wrongdoing on the part of GSA employees,
                      contractors, or private individuals doing business with the government.



                   Table 4. Summary of OIG Referrals

Type of Referral                        Cases                                Subjects
Criminal                                  42                                    108
Civil                                      5                                      9
Administrative                            91                                    220
TOTAL                                    138                                    337


                      In addition, the OIG made 25 referrals to GSA officials for information
                      purposes only.

                      Actions on OIG Referrals
                      Based on these and prior referrals, 24 cases (52 subjects) were accepted
                      for criminal prosecution and 3 cases (7 subjects) were accepted for civil
                      litigation. Criminal cases originating from OIG referrals resulted in
                      42 indictments/informations and 43 successful prosecutions. OIG civil
                      referrals resulted in 2 case settlements. Based on OIG administrative
                      referrals, management debarred 48 contractors/individuals, suspended
                      53 contractors/individuals, and took 7 personnel actions against employees.




                                                                 April 1, 2006 – September 30, 2006 33
                      Statistical Summary of OIG Accomplishments



                                       Monetary Results
                                       Table 5 presents the amounts of fines, penalties, settlements, judgments,
                                       and restitutions payable to the U.S. Government as a result of criminal and
                                       civil actions arising from OIG referrals.


                             Table 5. Criminal and Civil Recoveries
                                                           Criminal                       Civil

           Fines and Penalties                            $ 705,669                  $        —

           Settlements                                                                4,846,000

           Restitutions                                    2,507,330                          —

           TOTAL                                          $3,212,999                 $4,846,000


                                       Table 6 presents the amount of administrative recoveries, cost avoidance,
                                       and management commitment as a result of investigative activities.


                                  Table 6. Other Monetary Results
           Administrative Recoveries                        $176,902

           Cost Avoidance                                    464,002

           Management Commitment                              36,825

           TOTAL                                            $677,729




34 Semiannual Report to the Congress
APPENDICES
                    Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision process,         Southeast Sunbelt Region PBS
the GSA Office of the Chief Financial Officer, Office of
the Controller, is responsible for tracking the             Environment Program Management
implementation of audit recommendations after a             Period First Reported: October 1, 2005, to March 31, 2006
management decision has been reached. That office
furnished the following status information.                 This regional review identified a need to expand the
                                                            ERI to include delegated facilities and to improve the
Seventeen audits highlighted in prior reports to the        accuracy of environmental liability reporting. The
Congress have not yet been fully implemented; all are       report contained two recommendations; they have not
being implemented in accordance with currently              been implemented.
established milestones.
                                                            The    recommendations         require   strengthening
PBS Environment Program                                     environmental liability reporting and ensuring that the
                                                            environmental officials include delegated buildings.
Management                                                  They are scheduled for completion on November 15,
Period First Reported: October 1, 2005, to March 31, 2006   2006.
The review found that the scope of the Environment          Tenant Improvements
Management Program needs to be expanded, and the            Period First Reported: October 1, 2005, to March 31, 2006
database needs several application controls. The
report contained ten recommendations; two have been         The review of tenant improvements in three GSA
implemented.                                                regions disclosed the need for better oversight of the
                                                            tenant improvement process in leased space. The
One recommendation involves implementing a national
                                                            report contained four recommendations; they have not
Environmental Management System (EMS) to ensure
                                                            been implemented.
the PBS program’s national office continues to make
progress, to develop and implement a regional
                                                            The recommendations involve ensuring that associates
strategy, and to incorporate the recommendations of
                                                            follow established guidance, initiating a standardized
the EPA EMS review. It is scheduled for completion on
                                                            methodology for tracking and reconciling improvement
January 15, 2007. Another recommendation involves
                                                            costs, providing guidance and training related to cost
improving the Environmental Risk Index (ERI) by
                                                            proposals, and ensuring that the responsible person
expanding its scope, ensuring that all regional
                                                            manages tenant improvement projects. They are
environment officials know how to include delegated
                                                            scheduled for implementation between January 15,
buildings, and enhancing the ERI database with a
                                                            2007 and July 15, 2007.
number of controls. It is scheduled for completion
between November 15, 2006 and April 15, 2007.
Another recommendation involves ensuring that
                                                            Using Facility Management
PBS management supervises the environmental                 Schedules
liability report. It is scheduled for completion on         Period First Reported: October 1, 2005, to March 31, 2006
April 15, 2007. The fourth recommendation involves
applying a risk-based approach to identify tenants          This review found that PBS was not using the
whose activities pose a greater risk to the environment     FSS Facilities Maintenance and Management
and execute a written agreement with them. It is            schedules extensively. The report contained two
scheduled for completion on January 15, 2007.               recommendations; they have not been implemented.




                                                                                 April 1, 2006 – September 30, 2006 37
                    Appendix I–Significant Audits from Prior Reports



The recommendations require fostering awareness              Fleet. The report contained four recommendations;
and compliance with guidelines, and assessing how the        they have not been implemented.
MAS schedule can best serve PBS’s need for facility
maintenance contracting. They are scheduled for              The recommendations involve working with DESC to
completion on February 15, 2007 and May 15, 2007,            establish a written agreement, establishing internal
respectively.                                                procedures to quickly review the bills and process them
                                                             for payment, and working with DESC to reevaluate and
Review of the Western Distribution                           resolve disputed bills. They are scheduled for comple-
Center Relocation Project                                    tion between November 15, 2006 and March 15, 2007.
Period First Reported: October 1, 2005, to March 31, 2006
                                                             CONNECTIONS Program Contract
In the review of the relocation project, we found that the   Period First Reported: October 1, 2005, to March 31, 2006
procurement was inadequately competed and
administered contributing to cost overruns. The report       This review found that several problems exist in the use
contained three recommendations; they have not been          of the CONNECTIONS contract at the regional level.
implemented.                                                 The report contained three recommendations; two
                                                             have been implemented.
The recommendations involve strengthening the
management controls over the acquisition process,            The remaining recommendation, which requires
heightening the awareness among associates on the            establishing a percentage limit for other direct costs to
importance of proper procurement practices, and              be used by all the regions, is scheduled for completion
enforcing compliance with acquisition policies,              on December 15, 2006.
regulations, and procedures. They are scheduled for
completion on December 15, 2006.                             IT System Contingency Planning
                                                             Period First Reported: October 1, 2005, to March 31, 2006
E-Gov Travel
Period First Reported: October 1, 2005, to March 31, 2006    The review identified the need to develop a
                                                             comprehensive FSS-19 specific IT contingency plan to
The review of the management practices providing             cover all system components and procedures. The
oversight of the E-Gov Travel Initiative and support         report contained two recommendations; they have not
agencies disclosed that cost, schedule, and                  been implemented.
performance risks exist. The report contained five
recommendations; three have been implemented.                The recommendations involve addressing steps to
                                                             develop an IT contingency plan in accordance with
The remaining recommendations require developing             agency-wide policy and guidance and ensuring that
realistic Industrial Funding Fee revenue estimates and       policy and guidance address all key policy elements.
creating guidance to help agencies develop reasonable        They are scheduled for completion on February 15,
deployment and migration task timeframes. They are           2007 and April 15, 2007, respectively.
scheduled for completion between November 15, 2006
and February 15, 2007.                                       Federal Procurement Data System—
                                                             Next Generation
Fleet’s Purchase of Defense Energy                           Period First Reported: October 1, 2005, to March 31, 2006
Support Center Fuel
Period First Reported: October 1, 2005, to March 31, 2006    The review disclosed that certain contract and system
                                                             requirements had not been addressed and
This review identified the need to develop a centralized     discrepancies existed in some elements in the system.
electronic billing and payment procedure between             The report contained three recommendations; two
Defense Energy Support Center (DESC) and GSA’s               have been implemented.


38 Semiannual Report to the Congress
                     Appendix I–Significant Audits from Prior Reports




The remaining recommendation, which requires                  The remaining recommendations involve ensuring that
resolving all data element discrepancies and data             all significant contractual areas are included on the
migration issues, is scheduled for completion on              report card, integrating a rating and weighting system,
November 15, 2006.                                            providing guidance on formulating the report card and
                                                              follow-up procedures on contractor deficiencies, and
Repair and Alterations Program                                instituting a directive that contractors use the report
Period First Reported: April 1, 2005, to September 30, 2005   card. They are scheduled for completion between
                                                              November 15, 2006 and December 15, 2006.
The review centered on whether GSA has an effective
strategy to repair and modernize federally-owned              GSA Advantage!
buildings. The report contained four recommendations;         Period First Reported: April 1, 2005, to September 30, 2005
they have not been implemented.
                                                              The review centered on specific shortfalls with GSA
The recommendations involve a comprehensive plan              Advantage’s management funding and planning
addressing repair and modernization requirements of           process. The report contained four recommendations;
the GSA building inventory; advocating its processes          they have not been implemented.
and systems to assess building conditions, identify
                                                              The recommendations involve establishing a
building deficiencies, and schedule work items;
                                                              management structure with adequate authority and
completing a strategy to systematically define the
                                                              responsibility, developing and implementing specific
building inventory to meet customer agency long-term
                                                              performance measures, ensuring adequate processes
needs; and developing a methodology to prioritize the         are in place to minimize potential delays of vendor
prospectus-level projects. They are scheduled for             product data uploads, and analyzing virtual stores to
completion on November 15, 2006.                              ensure the benefits of these investments exceed their
                                                              development and maintenance costs. They are
Expanded Direct Delivery Program                              scheduled for completion on November 15, 2006.
Period First Reported: April 1, 2005, to September 30, 2005
                                                              Comprehensive Human Resources
The review focused on the timely processing of
customer orders under two blanket purchase                    Integrated System
                                                              Period First Reported: April 1, 2005, to September 30, 2005
agreements under the Office of Global Supply’s
Expanded Direct Delivery (EDD) Program. The report
                                                              The review of the Comprehensive Human Resources
contained two recommendations; one has not been
                                                              Integrated System identified user reluctance to use the
implemented.
                                                              system and the availability of duplicative system
                                                              functionality provided by other GSA systems. The
The remaining recommendation involves establishing            report contained three recommendations; one has
incentives for EDD contractors to fulfill their               been implemented.
performance metric on order fills and back orders and
establishing a system to address missing shipment             The remaining recommendations involve conducting a
status records. It is scheduled for completion on             post-implementation review and ensuring that
November 15, 2006.                                            adequate security controls are in place to manage
                                                              risks.  They are scheduled for completion on
Contractor Assessment Initiative                              November 15, 2006.
Period First Reported: April 1, 2005, to September 30, 2005
                                                              Review of FedBizOpps
The review focused on the Administrative Report Card          Period First Reported: April 1, 2004, to September 30, 2004
which was created to assist contracting officers in
making decisions about exercising contract options and        The review involved an online survey of FedBizOpps
awarding additional contracts. The report contained six       users to gather information on user satisfaction to
recommendations; two have been implemented.                   assess the effectiveness of FedBizOpps. The report
                                                                                    April 1, 2006 – September 30, 2006 39
                   Appendix I–Significant Audits from Prior Reports




contained four recommendations; one has been          Consolidation of Distribution Centers
implemented.                                          Period First Reported: October 1, 2002 to March 31, 2003

                                                      The review examined the operations of the FSS Stock
The recommendations involve developing a process to
                                                      Program. The report contained two recommendations;
solicit input from vendors on system enhancements,
                                                      one has been implemented.
evaluating enhancements to FedBizOpps based on
vendor input, and ensuring that memoranda of          The remaining recommendation, which requires
agreement are in place for FedBizOpps users. The      developing access to reliable data for all delivery
recommendations are scheduled for completion          methods, is scheduled for completion on November 15,
between November 15, 2006 and May 15, 2006.           2006.




40 Semiannual Report to the Congress
                             Appendix II–Audit Report Register
                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of       Audit                                                          Be Put to      (Unsupported)
Report        Number                    Title                                Better Use         Costs




(Note: Because some audits pertain to contract award or actions that have
not yet been completed, the financial recommendations related to these
reports are not listed in this Appendix.)

PBS Internal Audits
04/19/06       A050130        Review of Overtime Management Controls
                              in GSA Public Buildings Service, National
                              Capital Region

PBS Contract Audits
06/14/06       A020126        Review of Progress Payments Under                                     $169,273
                              Fixed-Price Construction Contract: U.S.
                              Courthouse, Hammond, Indiana, Hunt
                              Construction Group, Inc., Contract Number
                              GS-05P-96-GBC-0015

08/01/06       A050253        Limited Review of a Claim for Increased
                              Costs:       Garfunkel    Development
                              Corporation, Contract Number GS-04B-
                              36092

09/13/06       A060231        Preaward Review of Architect and
                              Engineering Services Contract: Teng &
                              Associates, Inc., Contract Number GS-
                              01P-06-BZC-0004

09/26/06       A060203        Review of a Claim for Termination: Ross
                              Barney and Jankowski Inc., Contract
                              Number GS-04P-04-EXC-0046

FSS Internal Audits
04/06/06       A060029        Review of the Federal Supply Service’s
                              Quick-MOD Program

06/07/06       A060016        Review of Inventory of Sensitive Items,
                              Western Distribution Center, Pacific Rim
                              Region, Federal Supply Service

06/30/06       A060164        Review of Federal Supply Service Travel
                              Card Program, Pacific Rim Region




                                                                            April 1, 2006 – September 30, 2006 41
                               Appendix II–Audit Report Register
                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put to      (Unsupported)
Report         Number                    Title                              Better Use         Costs




FSS Contract Audits
04/12/06        A060008         Preaward Review of Multiple Award
                                Schedule Contract:        Lenovo, Inc.,
                                Solicitation Number FCIS-JB-98001B

04/12/06        A060064         Preaward Review of Multiple Award
                                Schedule Contract Extension: Cherokee
                                Information  Services,    Incorporated,
                                Contract Number GS-00F-0052M

04/18/06        A050122         Review of Industrial Funding Fee                                $35,274
                                Remittances: Fastenal Company, Contract
                                Number GS-06F-0039K

04/20/06        A060114         Preaward Review of Multiple Award
                                Schedule Contract Extension: GE Ion
                                Track, Incorporated, Contract Number GS-
                                07F-9500G

04/25/06        A050265         Preaward Review of Multiple Award
                                Schedule Contract Extension: Lawson
                                Products, Inc., Contract Number GS-06F-
                                0027L

04/27/06        A050200         Preaward Review of Multiple Award
                                Schedule      Contract:        Motorola
                                Incorporated, Solicitation Number FCIS-
                                JB-980001-B

04/27/06        A050242         Preaward Review of Multiple Award
                                Schedule Contract Extension:       EC
                                America, Inc., Contract Number GS-35F-
                                0414K

04/28/06        A060041         Preaward Review of Multiple Award
                                Schedule Contract Extension: Morgan
                                Research Corporation, Contract Number
                                GS-23F-0191L

05/04/06        A060087         Preaward Review of Multiple Award
                                Schedule Contract Extension: Rapiscan
                                Security Products, Incorporated, Contract
                                Number GS-07F-9429G



42 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                          Financial
                                                                      Recommendations
                                                                  Funds to        Questioned
Date of    Audit                                                 Be Put to      (Unsupported)
Report     Number             Title                              Better Use         Costs




05/04/06   A050223   Limited Scope Review of Multiple Award                              $19,765
                     Schedule Contract Number GS-07F-
                     8785D for the Period January 1, 2004
                     Through September 30, 2005: Advantor
                     Systems Corporation

05/05/06   A050079   Limited Scope Review of Multiple Award                              $11,274
                     Schedule Contract: Johnson Controls,
                     Inc., Contract Number GS-07F-7823C

05/09/06   A050180   Preaward Review of Multiple Award
                     Schedule Contract Extension:      Office
                     Depot, Incorporated, Contract Number GS-
                     14F-0040K

05/09/06   A060077   Preaward Review of Multiple Award
                     Schedule Contract Extension: Worldwide
                     Language Resources, Inc., Contract
                     Number GS-10F-0307L

05/11/06   A060073   Preaward Review of Multiple Award
                     Schedule Contract Extension: Safety
                     Systems Corporation, Contract Number
                     GS-07F-8860D

05/11/06   A060108   Preaward Review of Multiple Award
                     Schedule Contract Extension: Protective
                     Materials Company, Contract Number GS-
                     07F-9489G

05/17/06   A050195   Preaward Review of Multiple Award
                     Schedule Contract Extension:       TAC
                     Americas, Inc., Contract Number GS-07F-
                     7851C

05/17/06   A060147   Preaward Review of Multiple Award
                     Schedule Contract Extension: K-Con, Inc,
                     Contract Number GS-07F-0216L

05/19/06   A060083   Preaward Review of Multiple Award
                     Schedule Contract Extension: Information
                     Manufacturing Corporation, Contract
                     Number GS-25F-0032L




                                                                April 1, 2006 – September 30, 2006 43
                               Appendix II–Audit Report Register
                                                                                    Financial
                                                                                Recommendations
                                                                            Funds to        Questioned
Date of        Audit                                                       Be Put to      (Unsupported)
Report         Number                    Title                             Better Use         Costs



05/24/06        A050245         Preaward Review of Multiple Award
                                Schedule Contract: Corporate Express,
                                Inc., Solicitation Number GS-14F-0016L

05/24/06        A060104         Preaward Review of Multiple Award
                                Schedule Contract Extension: Benefit
                                Recovery Specialists, L.P., Contract
                                Number GS-23F-0186L

06/01/06        A060111         Preaward Review of Multiple Award
                                Schedule Contract Extension: American
                                Science & Engineering, Inc., Contract
                                Number GS-07F-8897D

06/08/06        A050251         Preaward Review of Multiple Award
                                Schedule Contract Extension: ARES
                                Corporation, Contract Number GS-23F-
                                0113L

06/08/06        A060107         Preaward Review of Multiple Award
                                Schedule Contract Extension: OMNIPLEX
                                World Services Corporation, Contract
                                Number GS-15F-0051L

06/12/06        A060099         Preaward Review of Multiple Award
                                Schedule Contract Extension: Criticom,
                                Inc., Contract Number GS-35F-0272L

06/20/06        A050235         Preaward Review of Multiple Award
                                Schedule Contract Extension: Research
                                Triangle Institute, Contract Number GS-
                                10F-0097L

06/22/06        A060154         Preaward Review of Multiple Award
                                Schedule Contract Extension: Pierce
                                Manufacturing, Inc., Contract Number GS-
                                30F-1045D

06/28/06        A060130         Preaward Review of Multiple Award
                                Schedule     Contract      Extension:
                                InfoReliance  Corporation,  Contract
                                Number GS-35F-0273L




44 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                           Financial
                                                                       Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to      (Unsupported)
Report     Number             Title                               Better Use         Costs




07/05/06   A060162   Preaward Review of Multiple Award
                     Schedule Contract Extension: Corporate
                     Relocation Services, Contract Number GS-
                     23F-0243L

07/06/06   A060054   Preaward Review of Multiple Award
                     Schedule Contract Extension: Applera
                     Corporation - Applied Biosystems Group,
                     Contract Number GS-26F-5927A

07/14/06   A060090   Preaward Review of Multiple Award
                     Schedule Contract Extension: Point Blank
                     Body Armor, Inc., Contract Number GS-
                     07F-8942D

07/19/06   A060100   Preaward Review of Multiple Award
                     Schedule Contract Extension: The Gallup
                     Organization, Contract Number GS-00F-
                     0078M

07/20/06   A060062   Preaward Review of Multiple Award
                     Schedule Contract Extension: Agilent
                     Technologies, Inc., Contract Number GS-
                     26F-5944A

07/25/06   A060146   Preaward Review of Multiple Award
                     Schedule Contract Extension: Xiotech
                     Corporation, Contract Number GS-35F-
                     0244L

07/27/06   A060063   Preaward Review of Multiple Award
                     Schedule Contract Extension:   EMC
                     Corporation, Contract Number GS-35F-
                     0088K

08/09/06   A050204   Preaward Review of Multiple Award
                     Schedule Contract Extension: Plantronics,
                     Incorporated, Contract Number GS-35F-
                     0167L

08/14/06   A060093   Preaward Review of Multiple Award
                     Schedule Contract Extension:   WFI
                     Government Services, Inc., Contract
                     Number GS-23F-0215L



                                                                 April 1, 2006 – September 30, 2006 45
                               Appendix II–Audit Report Register
                                                                                    Financial
                                                                                Recommendations
                                                                            Funds to        Questioned
Date of        Audit                                                       Be Put to      (Unsupported)
Report         Number                    Title                             Better Use         Costs



08/15/06        A060127         Preaward Review of Multiple Award
                                Schedule Contract Extension May 7, 2006
                                Through May 6, 2011: W. B. Brawley
                                Company, Contract Number GS-27F-
                                0018L

08/31/06        A060191         Preaward Review of Multiple Award
                                Schedule Contract Extension:    Deco,
                                Incorporated, Contract Number GS-07F-
                                0103M

09/07/06        A060181         Preaward Review of Multiple Award
                                Schedule Contract Extension: Haverstick
                                Government Solutions, Inc., Contract
                                Number GS-35F-0496L

09/07/06        A060183         Preaward Review of Multiple Award
                                Schedule Contract: Cubic Simulation
                                Systems, Inc., Solicitation Number 2FYA-
                                WA-030003-B

09/12/06        A060115         Preaward Review of Multiple Award
                                Schedule Contract Extension:   WFI
                                Government Services, Inc., Contract
                                Number GS-03F-0553L

09/25/06        A060215         Preaward Review of Multiple Award
                                Schedule Contract Modification: SAP
                                Public Services, Inc., Contract Number
                                GS-35F-5891H

09/28/06        A060155         Preaward Review of Multiple Award
                                Schedule Contract Extension: Security
                                Consultants Group, Inc., Contract Number
                                GS-07F-0267L

FTS Internal Audits
09/25/06        A060151         Review of Federal Technology Service’s
                                Telecommunications Ordering and Pricing
                                System

09/28/06        A050198         Review of Federal Technology Service’s
                                Client Support Center, Northeast and
                                Caribbean Region


46 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put to      (Unsupported)
Report     Number              Title                                Better Use         Costs




09/28/06   A050198    Review of Federal Technology Service’s
                      Client Support Center, Mid-Atlantic Region

09/28/06   A050198    Review of Federal Technology Service’s
                      Client Support Center, Southeast Sunbelt
                      Region

09/28/06   A050198    Review of Federal Technology Service’s
                      Client Support Center, Greater Southwest
                      Region

09/28/06   A050198    Review of Federal Technology Service’s
                      Client Support Center, Rocky Mountain
                      Region

09/28/06   A050198    Review of Federal Technology Service’s
                      Client Support Center, New England
                      Region

09/28/06   A050198    Review of Federal Technology Service’s
                      Client Support Center, Heartland Region

09/28/06   A050198    Review of Federal Technology Service’s
                      Client Support Center, Pacific Rim Region

09/28/06   A050198    Review of Federal Technology Service’s
                      Client Support Center, Great Lakes Region

09/28/06   A050198    Review of Federal Technology Service’s
                      Client Support Center, Northwest/Arctic
                      Region

09/28/06   A050198    Review of Federal Technology Service’s
                      Client Support Center, National Capital
                      Region

09/29/06   A050078    Review of Federal Systems Integration and
                      Management Center (FEDSIM)

FTS Contract Audits
04/27/06   A050259    Preaward Review of Price Adjustment
                      Claim:   Lockheed Martin Information
                      Technology,   Task  Order    Number
                      R1570125, Contract Number GS-35F-
                      4863G

                                                                   April 1, 2006 – September 30, 2006 47
                               Appendix II–Audit Report Register
                                                                                  Financial
                                                                              Recommendations
                                                                          Funds to        Questioned
Date of        Audit                                                     Be Put to      (Unsupported)
Report         Number                   Title                            Better Use         Costs




Other Internal Audits
05/02/06        A060123         Alert Report on Information Technology
                                Security Controls for GSA’s Public and
                                Intranet Web Applications and Web
                                Servers

08/28/06        A050250         Review of GSA’s University for People,
                                National Capital Region

09/08/06        A060123         FY 2006 Office of Inspector General
                                FISMA Review of GSA’s Information
                                Technology Security Program

09/29/06        A050260         Review of GSA’s Competitive Sourcing
                                Initiative

Non-GSA Contract Audits
09/07/06        A060150         Review of Del Amo Reimbursement
                                Requests: Shell Oil Company




48 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending

Public Law 104-106 requires the head of a Federal             In GSA, the Office of the Chief Financial Officer (OCFO)
agency to complete final action on each management            is responsible for monitoring and tracking open recom-
decision required with regard to a recommendation in          mendations. While we continue to assist the agency in
an Inspector General’s report within 12 months after the      resolving these open items, various litigative
date of the report. If the head of the agency fails to        proceedings, continuing negotiations of contract
complete final action within the 12-month period, the         proposals, and corrective actions needed to undertake
Inspector General shall identify the matter in the            complex and often phased-in implementing actions
semiannual report until final action is complete.             often delay timely completion of the final action.

The OCFO provided the following list of reports with action items open beyond 12 months:


Date of         Audit
Report          Number                                            Title


Contract Audits
03/21/97        A70632           Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                                 GS-02P-94-CUC-0033(N)

06/27/97        A71811           Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                                 International, Inc., Contract Number GS-06P-94-GYC-0037

07/11/97        A71803           Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                                 Number GS-06P-94-GYC-0037

07/22/97        A71804           Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                                 Subcontractor to Morse Diesel International, Inc., Contract Number
                                 GS-06-P94-GYC-0037

07/31/97        A71820           Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                                 Number GS-06-P94-GYC-0037

08/05/97        A73617           Refund From The Committee For Purchase From People Who Are Blind Or
                                 Severely Disabled, Agreement Number GS-02F-61511

02/05/98        A80609           Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                                 Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                                 CUC-0070(N)

05/27/98        A42146           Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                                 Contract Number GS-00F-07010

06/17/98        A82441           Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                 Contract Number GS-09P-95-KTC-0010

02/05/99        A995113          Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                                 Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

03/24/99        A995128          Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                                 Morse Diesel International, Inc., Contract Number GS-06P-95-GZC-0501



                                                                                    April 1, 2006 – September 30, 2006 49
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                         Title


06/24/99        A995231         Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                                GS-02P-95-DTC-0041(N)

07/07/99        A995249         Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                                Number GS-02P-95-DTC-0041(N)

10/13/99        A995262         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/26/99        A995278         Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                                Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/04/99        A995272         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99        A995271         Preaward Audit of Architect and Engineering Services Contract: HLW International
                                LLP, Contract Number GS-02P-93-CUC-0062

03/29/00        A81830          Postaward Audit of Standardization and Control of Industrial-Quality Tools
                                Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                                March 8, 1991 Through February 29, 1996

03/29/00        A995122         Postaward Audit of Standardization and Control of Industrial-Quality Tools
                                Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                                Period March 1, 1996 Through April 30, 1998

06/01/00        A000971         Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                                Triangle Project

07/19/00        A000940         Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

08/24/00        A000941         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/17/00        A001024         Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00        A000942         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

01/29/01        A000909         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

02/08/01        A010089         Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                                Courthouse, Pensacola, FL, Lease Number GS-04B-35055



50 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                  Title


03/20/01   A001119   Audit of Forward Pricing Rates: J.A. Jones-GMO, LLC, Contract Number GS-02P-
                     99-DTC-0006 & GS-02P-98-DTC-0088

04/30/01   A010127   Audit of Billings under Contract Number GS-06P-99-GZC-0315: DKW
                     Construction, Inc.

05/11/01   A010128   Preaward Audit of a Change Order Proposal: D.A.G. Floors, Inc., Subcontractor to
                     J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-DTC-0056N

07/31/01   A001055   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

10/18/01   A63630    Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                     Contract Number GS-00K-95-AGS-6170, Contract Period April 1, 1995 through
                     March 31, 1996

10/31/01   A010265   Preaward Audit of Architect and Engineering Services Contract; HNTB District of
                     Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

01/11/02   A010281   Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

02/20/02   A010138   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/03/02   A010263   Preaward Audit of a Claim: Island ADC, Inc., Subcontractor to Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014

04/11/02   A60648    Postaward Audit of Multiple Award Schedule Contract: Gaylord Bros., Contract
                     Numbers GS-00F-3918A & GS-00F-3919A

04/18/02   A010248   Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/26/02   A010262   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/30/02   A020101   Preaward Audit of a Claim, Additional Change Items: Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014

05/16/02   A020115   Limited Scope Audit of a Termination Claim: Patriot Group Contractors, Inc.,
                     Contract Number GS-11P-99-MAC-0006

05/17/02   A020134   Audit of Delay Costs: J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-
                     DTC-0056N



                                                                   April 1, 2006 – September 30, 2006 51
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                         Title


05/29/02        A020109         Preaward Audit of a Claim: Schindler Elevator Corporation, Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

05/29/02        A020124         Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/12/02        A020097         Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/27/02        A010239         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

07/16/02        A020191         Preaward Audit of Supplemental Architect and Engineering Contract: McMullan &
                                Associates, Inc., Solicitation Number GS-11P-01-YTD-0319

07/30/02        A020086         Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

09/04/02        A020180         Preaward Audit of Architect and Engineering Services Contract: Adtek Engineering,
                                Inc., Solicitation Number GS-11P-01-YTD-0319

09/24/02        A020196         Preaward Audit of Architect and Engineering Services Contract: BEI Structural
                                Engineers, Inc., Solicitation Number GS-11P-01-YTD-0319

09/26/02        A020201         Preaward Audit of a Claim: Almar Plumbing and Heating Corp., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/02/02        A020178         Preaward Audit of Multiple Award Schedule Contract Modification: Motorola, Inc.,
                                GSA Contract Number GS-35F-0004L

11/14/02        A020223         Preaward Audit of a Claim: Fine Painting Co., Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

11/20/02        A010279         Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                U.S. Courthouse & Federal Building, Sacramento, California, Contract Number
                                GS-09P-95-KTC-0032

01/30/03        A020248         Audit of Claim for Increased Costs: Doan/Lake Erie LLC, Contract Number GS-
                                05P-99-GBC-0012

03/14/03        A020197         Preaward Audit of a Claim: Rael Automatic Sprinkler Co., Inc., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014




52 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                  Title


03/21/03   A020133   Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc.,
                     Subcontractor to Morse Diesel International, Inc., U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

03/25/03   A030140   Limited Scope Review of Termination Claim: Science Applications International
                     Corporation, Contract Number GS-35F-4461G, Task Order Number T0002SJ0159

05/02/03   A030106   Preaward Audit of a Claim for Increased Costs: George Foss Company,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/29/03   A020230   Preaward Audit of a Claim for Increased Costs: C.E. Toland & Son, Subcontractor
                     to Morse Diesel International, Inc., U.S. Courthouse & Federal Building,
                     Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/02/03   A030138   Audit of Claim for Increased Costs: Hunt Construction Group, Inc., Contract
                     Number GS-05P-96-GBC-0015

07/02/03   A030163   Preaward Audit of Multiple Award Schedule Contract Extension:         Information
                     Network Systems, Inc., Contract Number GS-35F-5002H

08/08/03   A030177   Review of Incurred Costs: Jacobs Facilities, Inc., Contract Number GS-11P-98-
                     MYD-0015

09/29/03   A030152   Preaward Audit of a Claim: J.A. Jones Construction Group, LLC, Contract Number
                     GS-02P-99-DTC-0006

10/09/03   A030247   Preaward Audit of Architect and Engineering Design Services Contract: Syska
                     Hennessy Group, Inc., Solicitation Number GS-11P-02-MKC-0057

10/09/03   A030248   Preaward Audit of Architect and Engineering Design Services Contract: STUDIOS
                     Architecture, Solicitation Number GS-11P-02-MKC-0057

10/09/03   A030250   Preaward Audit of Architect and Engineering Design Services Contract: Thorton-
                     Tomasetti-Cutts LLC, Solicitation Number GS-11P-02-MKC-0057

10/09/03   A030244   Preaward Audit of Architect and Engineering Design Services Contract: Shalom
                     Baranes Associates, Solicitation Number GS-11P-02-MKC-0057

10/16/03   A030225   Preaward Audit of Claim: AMEC Construction Management, Inc., Contract Number
                     GS-11P-96-MKC-0015

12/05/03   A030241   Audit of Claim for Increased Costs: BPI Mechanical, Inc., Subcontractor to AMEC
                     Construction Management, Inc., Contract Number GS-11P-96-MKC-0015

12/17/03   A030168   Preaward Audit of Multiple Award Schedule Contract: Dynamic Systems, Inc.,
                     Solicitation Number FCIS-JB-980001B


                                                                   April 1, 2006 – September 30, 2006 53
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                         Title


12/17/03        A040001         Preaward Audit of Multiple Award Schedule Contract: Concord Communications,
                                Incorporated, Solicitation Number FCIS-JB-980001B

12/31/03        A030172         Preaward Audit of a Claim: Cord Contracting Co., Inc., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

12/31/03        A030215         Preaward Audit of a Claim: A&L Construction Corporation, Subcontractor to J.A.
                                Jones Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/12/04        A040067         Audit of Claim for Increased Costs: C.J. Coakley Co., Inc., Subcontractor to AMEC
                                Construction Management, Inc., Contract Number GS-11P-96-MKC-0015

01/12/04        A040098         Preaward Audit of Supplemental Architect and Engineering Services Contract:
                                Gonzalez Hasbrouck, Inc., Solicitation Number GS-05P-03-GBD-0072

01/13/04        A030265         Interim Audit of Multiple Award Schedule Contract: BearingPoint, LLC, Contract
                                GS-23F-9796H

01/15/04        A030155         Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/16/04        A030234         Preaward Audit of a Claim: KSW Mechanical Services, Inc., Subcontractor to J.A.
                                Jones Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/29/04        A030223         Preaward Audit of Claim: John J. Kirlin, Inc., Subcontractor to AMEC Construction
                                Management, Inc., Contract Number GS-11P-96-MKC-0015

02/03/04        A040119         Attestation Review of Supplemental Architect and Engineering Services Contract:
                                Julie Snow Architects, Inc., Solicitation Number GS-05P-03-GBD-0072

03/01/04        A030259         Preaward Audit of a Claim: Airflex Industrial Inc., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

03/09/04        A040162         Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                Contract Number GS-29F-0173G, for the Interim Period April 1, 2004 Through
                                September 30, 2006

03/09/04        A030186         Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                Contract Number GS-29F-0173G, for the Contract Period December 12, 1996
                                Through October 31, 2003

03/23/04        A030191         Preaward Audit of a Claim: Five Star Electric Corp., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

03/31/04        A030230         Preaward Attestation Review of a Claim: Singleton Electric Company, Inc., a
                                Subcontractor to AMEC Construction Management, Inc., Contract Number GS-
                                11P-96-MKC-0015


54 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                     Title


06/03/04   A040091   Audit of Claim for Increased Costs: Industrial First, Inc., Subcontractor to Hirschfeld
                     Steel Co., Inc., Contract Number GS-05P-97-GBC-0011

06/08/04   A040165   Audit of Claim for Increased Costs: Industrial First, Inc., Subcontractor to Ajay
                     Glass & Mirror Co., Inc., Contract Number GS-05P-97-GBC-0011

06/09/04   A040095   Preaward Audit of a Termination Settlement Proposal: M.L. Benjamin Enterprises,
                     Inc., Contract Number GS-02P-00P-VC-0024

06/15/04   A040095   Audit of Final Contract Payment: M.L. Benjamin Enterprises, Inc., Contract Number
                     GS-02P-00P-VC-0024

06/28/04   A040085   Limited Scope Postaward Audit of Multiple Award Schedule Contract: Onboard
                     Software, Inc., Contract Number GS-35F-0117J

07/01/04   A040143   Review of Claim for Increased Costs: SimplexGrinnell, LP,GS-05P-99-GBC-0015

07/12/04   A040125   Attestation Engagement Review of A/E Services Contract: Cannon Design, Inc.,
                     Solicitation Number GS-02P-03-DTC-0003

08/31/04   A030158   Preaward Audit of a Claim: ADF Steel Corp., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

10/12/04   A040190   Review of a Claim: Peterson Geller Spurge, Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

10/14/04   A040192   Preaward Review of Multiple Award Schedule Contract Extension: US
                     Investigations Services, Professional Services Division, Incorporated, Contract
                     Number GS-07F-0385J

10/28/04   A040161   Preaward Audit of a Claim: Artex Systems Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

10/29/04   A040211   Preaward Review of Multiple Award Schedule Contract Extension: Allsteel Inc.,
                     Contract Number GS-28F-0010J

12/30/04   A050083   Attestation Engagement Review of Claim for Increased Costs: LDI Metalworks,
                     Inc., Subcontractor to Mitchell Enterprises, Inc., Contract Number GS-07P-00-
                     UJC-0007

01/04/05   A040255   Review of Information Systems Support, Inc.’s billings for Task Order Number
                     GS10TR-00EBF-2546 Under GSA Contract Number GS-06K-97-BND-0710

01/05/05   A040212   Preaward Review of Multiple Award Schedule Contract Extension:               ManTech
                     Advance Systems International, Inc., Contract Number GS-23F-0122J

04/06/05   A050059   Preaward Review of Multiple Award Schedule Contract: Cort Business Services,
                     Solicitation Number 3FNO-M1-010001-B

                                                                       April 1, 2006 – September 30, 2006 55
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                         Title


05/10/05        A050112         Preaward Review of Multiple Award Schedule Contract Extension: Entrust, Inc.,
                                Contract Number GS-35F-0332K

05/11/05        A020220         Review of Industrial Funding Fee Remittances: Kipper Tool Company, Contract
                                Number GS-06F-0018L

06/10/05        A040262         Preaward Review of Multiple Award Schedule Contract Extension: Digital Systems
                                Group, Incorporated, Contract Number GS-35F-0760J

06/17/05        A050100         Preaward Review of Multiple Award Schedule Contract Extension: Technical and
                                Management Services Corporation, Contract Number GS-00F-0020L

06/24/05        A050077         Preaward Audit of Cost or Pricing Data: DPRA, Inc., Contract Number GS-00F-
                                0030L

06/29/05        A040144         Preaward Audit of a Claim: Solera Construction, Inc./DCM Erectors, Inc., Joint
                                Venture 2nd Tier Subcontractor to J.A. Jones Construction Group, LLC, Contract
                                Number GS-02P-99-DTC-0006(N)

06/30/05        A040207         Preaward Audit of a Claim: Laquila Construction, Inc., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

07/08/05        A050007         Preaward Review of Multiple Award Schedule Contract Extension: Network
                                Equipment Technologies Federal, Inc., Contract Number GS-35F-0205K

07/08/05        A050138         Review of Claim: Nason and Cullen, Inc., Contract Number GS-03B-02301

07/14/05        A040022         Review of Multiple Award Schedule Contract Number GS-29F-0001N for the
                                Interim Period October 10, 2002 to December 31, 2003: Humanscale

07/29/05        A050239         Preaward Review of Architect and Engineering Services Contract: DMJMH&N,
                                Inc., Contract Number GS-11P-04-MKC-0038

08/02/05        A050093         Preaward Review of Multiple Award Schedule Contract Extension:          H J Ford
                                Associates, Inc., Contract Number GS-23F-0206K

08/04/05        A050203         Preaward Review of Architect Engineer Proposal: Skidmore, Owings and Merrill,
                                LLP, Contract Number GS-05P-04-GBC-0057

08/15/05        A050157         Review of Termination Settlement Proposal: CompuCom Federal Systems, Inc.,
                                Contract Number GS-00K-97-AFD-2226

09/07/05        A050125         Preaward Review of Multiple Award Schedule Contract Extension:         Steelcase,
                                Incorporated, Contract Number GS-28F-8021H

09/12/05        A050151         Preaward Review of Multiple Award Schedule Contract Extension:             Global
                                Computer Enterprises, Inc., Contract Number GS-35F-0426K


56 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                 Title


09/13/05   A050073   Preaward Review of Multiple Award Schedule Contract Extension:        Computer
                     Sciences Corporation, Contract Number GS-23F-0092K

09/19/05   A040222   Postaward Review of Multiple Award Schedule Contract Number GS-07F-9477G
                     for the Period February 1, 1999 to January 31, 2004; New Hermes, Incorporated

09/19/05   A040164   Preaward Review of Multiple Award Schedule Contract:       Oracle Corporation,
                     Solicitation Number FCIS-JB-980001B




                                                                 April 1, 2006 – September 30, 2006 57
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit                                                                               Projected Final
Report         Number                                         Title                                 Action Date


Internal Audits
07/15/99        A82706          PricewaterhouseCoopers LLP Management Letter, Fiscal Year                    Open
                                1998 Financial Statement Audit

09/27/01        A010110         Review of GSA’s Natural Gas Program, Public Buildings                   01/15/2007
                                Service

03/18/03        A020161         Audit of the Consolidation of Distribution Center Operations:           11/15/2006
                                Impact on Shipment Costs & Delivery Times

08/05/04        A020245         Review of FedBizOpps                                                    05/15/2007

12/07/04        A040109         PricewaterhouseCoopers LLP Fiscal Year 2004 Information                      Open
                                Technology Management Letter

03/28/05        A040132         Audit of FTS Working Capital/Reserve Fund Levels                        11/15/2006

05/03/05        A040109         Audit of the General Services Administration’s Fiscal Years 2004        03/15/2007
                                and 2003 Financial Statements

06/06/05        A040257         Review of GSA Global Supply’s Expanded Direct Delivery                  11/15/2006
                                Program

09/26/05        A040176         Audit of PBS’s Major Repair and Alterations Program                     10/15/2006

09/29/05        A040132         Audit of FTS Regional Telecommunications and Regional                   10/15/2006
                                Information Technology Solutions Fees

09/29/05        A040246         Review of the GSA Advantage! System                                     10/15/2006

09/29/05        A040252         Audit of FSS’s Contractor Assessment Initiative (CAsI)                  12/15/2006

09/30/05        A040142         Strategic Challenges for GSA’s Comprehensive Human                      10/15/2006
                                Resources Integrated System (CHRIS)




58 Semiannual Report to the Congress
                                 Appendix IV–Delinquent Debts




The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                   delinquency notices. We have also increased our
                                                              efforts to identify invoice offsets on amounts due to
Collection                                                    commercial vendors on other contracts. We expect
During the period April 1, 2006 through September 30,         these administrative adjustments will result in faster
2006, the following activities were undertaken by GSA         claim resolution. In addition, more aggressive
in an effort to improve debt collection and reduce the        actions have been taken to resolve past due receiv-
amount of debt written off as uncollectible.                  ables including timelier referrals to Treasury and
• From April 1, 2006 to September 30, 2006, the               accelerated write-offs of older receivable balances.
  GSA Finance Centers referred approximately
                                                          • As of September 30, 2006, the DC Government
  $32.9 million of delinquent non-Federal claims to the
                                                            owed GSA $203 for two supply bills over 300 days
  U.S. Department of the Treasury (Treasury) for
  cross-servicing collection activities. Collections on     old. All other supply bills are under 180 days old.
  non-Federal claims exceeded $216.9 million.               The GSA Automotive Acquisition Center is now
  Administrative offsets have resulted in additional        accepting orders for non-emergency vehicles from
  collections of $4.1 million. GSA also collects            the DC Government. The DC Government has
  non-Federal claims using Pre-Authorized Debits            ordered, received, and been billed for several
  (PADs). From April 1, 2006 to September 30, 2006,         vehicles. A listing of all outstanding supply bills is
  159 PADs totaling $49,302 were processed.                 sent monthly to the DC Government’s Inspector
                                                            General and Chief Financial Officer.
• To comply with the Debt Collection Improvement Act
  of 1996, GSA transmits delinquent claims each           • A claim was setup for $30,778 in the Accounts
  month to the U.S. Department of the Treasury,             Receivable Claims System (ARCS) against
  Financial Management Service (FMS) for collection.        Raytheon Systems Company for four delinquent
                                                            fleet bills from 2004 that the Billing Unit was unable
• Claims procedures have been revised to improve            to collect. If unpaid after 180 days, the claim will be
  claims management and control. Changes include            referred to the Treasury Offset Program for
  increases in telephone follow-up contacts with            collection. There are several more contractors that
  commercial vendors, field personnel, and GSA              have unpaid fleet or supply bills over a year old that
  managers to obtain and resolve issues. We imple-          will be referred to the Claims Unit once a Tax ID
  mented a more consistent and timely process of            Number (TIN) is obtained.

Non-Federal Accounts Receivable

                                                   As of                  As of
                                                April 1, 2006       September 30, 2006           Difference

  Total Amounts Due GSA                        $158,919,439           $159,520,284                  $600,845

  Amounts Delinquent                            $21,131,176             $16,633,579             ($4,497,597)

  Total Amount Written
  Off as Uncollectible
  Between 4/1/06 and
  9/30/06                                        $3,181,186


                                                                                April 1, 2006 – September 30, 2006 59
                                     Appendix V–Reporting Requirements




The table below cross-references the reporting require-                           Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                            1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                  and the National Defense Authorization Act is also
addressed.     The information requested by the                                   cross-referenced to the appropriate page of the report.



  Requirement                                                                                                                                    Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .27

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . .2, 12

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 12

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . .37

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) – List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41

     Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . .2, 12

     Section 5(a)(8) – Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .32

     Section 5(a)(9) – Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .31

     Section 5(a)(11) – Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) – Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .37

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .59

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .49




60 Semiannual Report to the Congress
                           Appendix VI–OIG Offices and Key Officials



Office of the Inspector General
Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

Deputy Inspector General, Eugene L. Waszily (JD) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1362

Advisor, Robert M. Samuels (JX) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450


Office of Counsel to the Inspector General
Counsel to the IG, Kevin A. Buford (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932

Deputy Counsel to the IG, Virginia S. Grebasch (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932


Office of Internal Evaluation and Analysis
Director, Peter J. Coniglio (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2460


Office of Audits
Acting Assistant IG for Auditing, Andrew Patchan, Jr. (JA) . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374

Acting Principal Deputy Assistant IG for Auditing, Andrew A. Russoniello (JAD) . . . . . . . .(202) 501-0374


Deputy Assistant Inspectors General for Auditing
Information Technology Audit Office, Gwendolyn A. McGowan (JA-T) . . . . . . . . . . . . . . . .(703) 308-1223

Real Property Audit Office, Rolando N. Goco (JA-R) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 219-0088

Finance & Administrative Audit Office, Vacant (JA-F) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0006

Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . . . . . . .(703) 603-0189

Contract Audit Office, Joseph B. Leland (JA-C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795


Regional Inspectors General for Auditing
National Capital Region Field Office, Paul J. Malatino (JA-W) . . . . . . . . . . . . . . . . . . . . . .(202) 708-5340

New England Field Office, Joseph B. Leland (JA-1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795

Northeast and Caribbean Field Office, Joseph M. Mastropietro (JA-2) . . . . . . . . . . . . . . . .(212) 264-8620

Mid-Atlantic Field Office, Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(215) 446-4840

Southeast Sunbelt Field Office, James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . . . . . . .(404) 331-5125


                                                                                                   April 1, 2006 – September 30, 2006 61
                             Appendix VI–OIG Offices and Key Officials


   Regional Inspectors General for Auditing (continued)
   Great Lakes Field Office, David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7781

   The Heartland Field Office, Arthur L. Elkin (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7052

   Greater Southwest Field Office, Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2572

   Pacific Rim Field Office, Vacant (JA-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2744

     Auburn Sub-Office, Auditor-in-Charge Raymond E. Drew (JA-9/AUB) . . . . . . . . . . . . . .(253) 931-7650


   Office of Investigations
   Assistant IG for Investigations, Charles J. Augone (JI) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1397

   Acting Deputy Assistant IG for Investigations, Gregory G. Rowe (JID) . . . . . . . . . . . . . . . .(202) 501-1397



   Special Agents in Charge (SAC)
   National Capital Regional Office, SAC Randal A. Stewart (JI-W) . . . . . . . . . . . . . . . . . . . .(202) 252-0008

     Philadelphia Resident Office, Special Agent James Barry (JI-3) . . . . . . . . . . . . . . . . . . .(215) 446-4830

   Northeast and Caribbean Regional Office, SAC Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . .(212) 264-7300

     Boston Resident Office, Assistant SAC Joseph J. Dziczek (JI-1) . . . . . . . . . . . . . . . . . .(617) 565-6820

   Southeast Regional Office, SAC Lee P. Quintyne (JI-4) . . . . . . . . . . . . . . . . . . . . . . . . . . .(404) 331-5126

   Great Lakes Regional Office, SAC Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7779

   Heartland Regional Office, SAC John F. Kolze (JI-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7214

   Southwest Regional Office, SAC Paul W. Walton (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2589

   Pacific Rim Regional Office, SAC Liza Shovar (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2755

   Northwest Regional Office, SAC Terry J. Pfeifer (JI-10) . . . . . . . . . . . . . . . . . . . . . . . . . . .(253) 931-7654


   Office of Administration
   Assistant IG for Administration, Vacant (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2319

     Human Resources Division, Director Arrie Etheridge (JPH) . . . . . . . . . . . . . . . . . . . . . .(202) 501-0360

     Information Technology Division, Director Margaret A. Hamilton (JPM) . . . . . . . . . . . . .(202) 501-3134

     Administrative and Financial Management Division, Director Marta M. Viera (JPF) . . . .(202) 501-2887




62 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
